OFFICE OF INSPECTOR GENERAL            United States Department of State
                                       and the Broadcasting Board of Governors
                                       Office of Inspector General




                              SEMIANNUAL REPORT
                              TO THE CONGRESS
                              April 1 to September 30, 2010
�
Inspector
General
Office of
        Summary of OIG Accomplishments
�

     Financial Results:
     Questioned costs
       Issued during the reporting period                          $16,647,000
       Management decision during the reporting period             $11,815,000
     Recommendations for funds to be put to better use
       Issued during the reporting period                            $1,679,000
       Management decision during the reporting period                      $0
     Investigative monetary recoveries                                $289,320



     Investigative Results:
     Cases opened                                                            68
     Cases closed                                                            86
     Criminal actions                                                       154
     Administrative actions                                                  44
     Hotline and complaint activity                                         706



     Reports Issued:                                                         66




                          Cover photo: Beijing NEC, China
�
              Photo provided by Office of Overseas Buildings Operations
�
                                © Timothy Hurley 





Requests for additional copies of this publication should be addressed to:

                          Office of Inspector General
�
                          U.S. Department of State
�
                             OIG/EX, Room 810
�
                          1700 North Moore Street
�
                            Arlington, VA 22209
�


                    Department of State Publication 11462
�
                         Office of Inspector General
�
                                       TABLE OF CONTENTS
�

MESSAGE FROM THE DEPUTY INSPECTOR GENERAL ....................................................... 1
�

EXECUTIVE SUMMARY .............................................................................................................. 3
�

CONGRESSIONAL ACTIVITIES AND OUTREACH.............................................................. 11
�


DEPARTMENT OF STATE

MIDDLE EAST REGIONAL OFFICE ......................................................................................... 17
�

AUDITS .......................................................................................................................................... 25
�

INSPECTIONS .............................................................................................................................. 33
�

INVESTIGATIONS....................................................................................................................... 51
�

APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES .......................... 59
�

APPENDIX 2: REPORTS ISSUED ............................................................................................... 61
�

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ........................... 65
�

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS ........................ 67
�

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS................................................... 77
�


BROADCASTING BOARD OF GOVERNORS

AUDITS .......................................................................................................................................... 81
�

INSPECTIONS .............................................................................................................................. 83
�
INVESTIGATIONS........................................................................................................................ 87
�
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS INVESTIGATIVE 

   ACTIVITIES........................................................................................................................... 89
�

APPENDIX 2: REPORTS ISSUED ............................................................................................... 91
�

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ........................... 93
�

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS ........................ 95
�

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS................................................... 97
�

LIST OF ABBREVIATIONS ......................................................................................................... 99
�




                        Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010                                    ii
iii   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
MESSAGE FROM THE DEPUTY
INSPECTOR GENERAL

                                  I am pleased to present the Office of Inspector General
                                  (OIG) Semiannual Report to the Congress for the
                                  Department of State (Department) and the Broadcasting
                                  Board of Governors (BBG). This report covers the period
                                  ending September 30, 2010, as required by the Inspector
                                  General Act of 1978, as amended. 

                             Recently, I was asked why our office and other U.S.
                             Government oversight organizations were focusing so much
                             attention on the transition of responsibilities in Iraq from
 Deputy Inspector General,
� the Department of Defense (DOD) to the Department of
     Harold W. Geisel
�      State. The presumption seemed to be that our oversight
                             activities could overlap or be duplicative, thereby causing
extra work for those responding to our requests for information. I appreciated the
opportunity to make clear where our priorities lie. We want to invest our resources
where we can do the most good for our country and the agencies we oversee. At pres-
ent, I can see no higher priority than helping our agencies “get it right” in Iraq, a place
where the American people have spent so much blood and treasure.

The likelihood of overlap and duplication is small, given the extensive coordination
that takes place among the elements of the oversight community. From the broad
discussions within the Southwest Asia Joint Planning Group to individual consul-
tations with the OIGs of DOD and the United States Agency for International
Development, the Special Inspector General for Iraq Reconstruction (SIGIR), and
the Government Accountability Office, we make every effort to coordinate and lever-
age the impact of our combined efforts.

Nor is there any shortage of work to go around. The magnitude of the challenge facing
the U.S. Government, as its mission in Iraq transitions from a military operation to
a traditional bilateral relationship of diplomacy and development, is staggering. With
only 50,000 U.S. troops remaining in Iraq and the remainder scheduled to withdraw
by the end of 2011, the Department faces what the Under Secretary for Management
has described as “a critical need for logistical and life support of a magnitude and scale
of complexity that is unprecedented in the history of the Department of State.” Given
the demands of managing this explosion of logistical operations and contracts, the
Department and other U.S. Government agencies will require the best efforts of the
combined oversight community to meet the challenges ahead.


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   1
    The work we have done is directed toward supporting and informing those efforts
    to the best of our ability. Projects just completed and still underway include inspec-
    tions and audits of the management and operations of Embassy Baghdad—the
    largest and most complex in the world—our evaluation of the embassy’s Logistics
    Civil Augmentation Program, and extensive reviews of the Department’s second
    Worldwide Personal Protective Services (WPPS II) contracts and other security
    programs. We also conduct investigations of wrongdoing, such as the joint inves-
    tigation with SIGIR this period. It is our intention to provide the information and
    insights that will inform the critical decisionmaking necessary to achieve a successful
    transition and strengthen the integrity of future U.S. operations in Iraq.




                                                          Harold W. Geisel
                                                          Deputy Inspector General




2                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
EXECUTIVE SUMMARY
�

The auditors, inspectors, investigators, and other professionals in the Office of
Inspector General (OIG) promote effective management, accountability, and posi-
tive change in the Department of State (Department), the Broadcasting Board of
Governors (BBG), and the foreign affairs community. During this reporting period,
OIG issued 66 reports with recommendations to improve the Department and BBG
programs and operations, and identified more than $18 million in cost efficiencies—
including questioned costs, fines, and recoveries. A full list of reports issued during
this period can be found in Appendix 2 of each agency section of this report. This
Semiannual Report to the Congress summarizes work carried out by OIG during the
period April 1 through September 30, 2010.




MIDDLE EAST REGIONAL OFFICE
In its audit of property accountability at Embassy Baghdad, OIG noted the embassy
had difficulty controlling and accurately accounting for its U.S. Government prop-
erty, including vehicles, non-expendable items, and expendable supplies. OIG also
noted issues with unliquidated obligations (unfilled or partially filled orders) and
medical supplies; an excess of hand-held radios; and unassigned cell phones for
which the embassy was being charged. OIG calculated the embassy could potentially
save costs by transferring radios to other posts and taking steps to reduce cell phone
charges. Recommendations focused on vehicle inventorying, proper recording of
property data, development of inventory-related plans and procedures, transfer of
excess radios, and reducing cell phone charges.

A limited-scope review of vetting procedures for Foreign Service nationals at
Embassy Kabul determined that the vetting and hiring processes did not violate the
Department’s policy regarding nepotism. However, OIG found the regional security
office did not always follow Department policy in checking local records of appli-
cants, maintaining records of interim security certifications, or training Foreign
Service national investigators (FSNI). OIG recommended that Embassy Kabul
request training for FSNIs, comply with or seek a waiver to guidance on records
checks, and track temporary security certifications.

OIG issued a capping report on the Bureau of Diplomatic Security’s (DS) manage-
ment of the second Worldwide Personal Protective Services (WPPS II) contract, as
well as WPPS II contractor performance. OIG’s reviews began in the fall of 2008
with an examination of the status of recommendations made by the Secretary of

              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   3
    State’s Panel on Personal Protective Services in Iraq, followed by evaluations of all
    three security contractors operating in Baghdad, Jerusalem, and Kabul. Although
    protective duties were generally satisfactory, OIG’s evaluations revealed several trends
    that weakened contract management and oversight. OIG also found issues with
    contractor performance, including personal security specialist training, the ability
    to fill some contractor positions, and inventory and storage of U.S. Government-
    furnished property. DS responded quickly to OIG’s recommendations, continued to
    improve the WPPS II program, and has incorporated updated policies into the new
    Worldwide Protective Services contract.

    A limited-scope review of DS’s oversight of explosives detection canine programs in Iraq
    and Afghanistan found systemic weaknesses in canine test procedures. The contrac-
    tors, rather than DS, were responsible for implementing the program and ensuring that
    procedures were being followed. Contractors were not testing for all mandated scents,
    were using old explosive materials to train and test the canines, and were improperly
    storing testing materials. OIG made recommendations to improve the program.

    An evaluation of the Kabul Embassy Security Force (KESF) determined that the KESF
    had ensured the safety of personnel at Embassy Kabul, but had not complied with
    several contract requirements. OIG also found that DS was not holding the contractor
    accountable for meeting these requirements. Recommendations were made to improve
    firearms training, guards’ English language proficiency, and explosives detection canine
    testing; change camp access procedures; and recover funds for improper use of U.S.
    Government-furnished weapons and unaccounted for weaponry.

    OIG evaluated the performance of the United Nations Relief and Works Agency for
    Palestine Refugees in the Near East (UNRWA) in assisting Palestinian refugees in
    the West Bank and Gaza through its Emergency Appeal program. In its evaluation,
    OIG found that UNRWA’s Emergency Appeal program meets critical refugee needs
    and strives to meet mission objectives while carefully expending donor contribu-
    tions. In 2008 and 2009, UNRWA effectively managed and implemented Emergency
    Appeal services in the West Bank and Gaza, reached intended recipients, and
    achieved intended results. OIG found no evidence of political interference or misap-
    propriation of Emergency Appeal assistance.




    OFFICE OF AUDITS
    In its audit of internal controls for overtime payments at Embassy Baghdad, OIG
    determined that American employees stationed or on temporary duty at the embassy
    submitted 777,888 hours of overtime, totaling about $36 million, for 2008 and
    2009. The embassy did not have adequate internal controls to support the overtime
    payments, which were claimed by approximately half of all American employees each


4                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
pay period. Supervisors did not authorize overtime in advance of overtime performed,
did not certify timesheets after work was performed, did not certify overtime for
payment in the proper period, and did not require time-and-attendance documenta-
tion to support overtime payments. Since OIG’s audit in June 2010, the embassy has
initiated a program to monitor the number of overtime hours worked and to send
quarterly reports to supervisors for explanations of excessive overtime amounts.

In its audit of maintenance and improvements of overseas real property, OIG deter-
mined that posts’ maintenance and improvement (M&I) needs for overseas property
were not met, primarily because funding that the Department received was not
sufficient to enable the Bureau of Overseas Buildings Operations (OBO) to fund all
needed M&I. The Department had not accurately reported deferred routine mainte-
nance and repair in its financial statements. Specifically, it did not include deferred
routine M&R estimated at about $46.4 million in the amount, and it had inappro-
priately included an estimated $51 million in repairs and improvements, as well as
approximately $2.1 million in repair costs that were no longer valid. The Department
had controls in place to ensure that M&I funds were spent for their intended
purpose, but posts did not always comply with OBO’s reporting requirements. OIG
recommended OBO revise its Long Range Overseas Maintenance Plan to provide
additional support for the Department’s annual budget request and require posts to
provide additional information to improve the reliability of OBO’s process for priori-
tizing repair and improvement requests. OIG also recommended that the Bureau of
Resource Management continue to work with the Office of Management and Budget
to obtain additional funds for M&I.

An OIG audit of the Department’s worldwide purchase card program determined
that selected purchase cardholders were not following established internal controls for
the purchase card program and that the guidance manual for purchase card program
participants had not been updated to reflect changes in program requirements since
November 2006. As a result, cardholders have split purchases, purchased unauthor-
ized items, and disclosed purchase card account numbers to unauthorized individu-
als, and the Department was deprived of cost savings that would have occurred if
transactions had been properly entered and completed in the mandated procurement
system. Officials from the Bureau of Administration, Office of the Procurement
Executive, stated that they did not have sufficient staff to monitor cardholders but
relied on bureau program coordinators and approving officials to perform this func-
tion, resulting in a potential conflict of interest and inadequate separation of duties.
OIG recommended the Bureau of Administration develop and implement a plan that
includes adequate staffing to monitor purchase card participants’ compliance with
internal controls and that it issue an updated program manual.

At the request of OIG, an external contractor audited the Department’s corrective
action plans developed to address internal control deficiencies identified during the
FY 2009 financial statement audit in the areas of financial reporting, real property,
and personal property and equipment.

              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   5
    OFFICE OF INSPECTIONS
    During this reporting period, OIG conducted full inspections and security reviews of
    18 overseas missions, two domestic bureaus, and a compliance follow-up review to a
    prior inspection. The reviews identified potential cost efficiencies, made recommen-
    dations for operational and managerial improvements, and identified best practices.

    The Office of Inspections also conducted two special reviews focusing on on
    Department of State management issues:

    Review of Support for Employees Who Are Serving or Have Served in High Stress, High
    Threat, Unaccompanied Posts reported that Department employees are proud of
    their service in difficult places and appreciate the opportunity to make a meaning-
    ful contribution to an important part of U.S. foreign policy. However, 90 percent of
    respondents to OIG’s survey reported an unusual amount of stress from these tours.
    OIG recommended that the Department issue a high-level message that encourages
    employees to seek consultations with mental health professionals. OIG also recom-
    mended that the Department be creative in offering additional counseling services,
    take steps to increase attendance at the High Stress Assignment Outbrief, and
    formally task and train leadership to mentor returnees.

    Implementation of a Process to Assess and Improve Leadership and Management of
    Department of State Posts and Bureaus recommended that the Department conduct
    its own leadership assessments, especially at 1-year-tour posts. OIG offered several
    suggestions for identifying post and bureau leadership and management issues, and
    recommended that the Department devise and implement a feedback system to regu-
    larly assess managers and to address and correct any deficiencies.

    OIG also issued two reports in response to requests from Members of Congress. In
    response to a request from Senator Frank R. Lautenberg and Representative Rush
    Holt, OIG issued a Review of the Department of State Interagency Coordination and
    Public Communication Regarding U.S. Citizen Victims in the Earthquake-Destroyed
    Hotel Montana in Haiti. The review of the response to the Haiti earthquake found
    the Department was effective in coordinating the Federal Government response and
    gave credit to the Bureau of Consular Affairs and the consular section of Embassy
    Haiti for responding to a disaster of enormous magnitude and duration. The report
    recommended establishing procedures to determine and communicate, including to
    Members of Congress and to the general public, who will be the senior Department
    official with responsibility for crisis response in the event of future extraordinary
    emergencies. The report also recommended that the consular crisis management soft-
    ware be upgraded, on the basis of lessons learned, to be more effective in the future.

    In response to a request from Representatives Chris Smith, Ileana Ros-Lehtinen, and
    Darrell E. Issa, OIG published a Review of Department of State Activities Concerning


6                Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
the Draft Kenya Constitution. The report focused on Department officials’ activi-
ties and public statements concerning Kenya’s draft constitution, which was the
subject of a nationwide referendum vote on August 4, 2010. OIG did not find any
evidence that U.S. Embassy officials made any private or public statements to Kenyan
Government officials, nongovernmental organizations, or any other actors expressing
either a positive or negative position on the abortion provision in the draft Kenyan
Constitution. OIG also did not find any evidence that embassy officials attempted
to influence any Kenyan’s opinion, either positively or negatively, on the abortion
provision.




OFFICE OF INVESTIGATIONS
OIG investigations within this reporting period included allegations of conflict of
interest, embezzlement, and employee misconduct. Investigative work resulted in 9
referrals for prosecution, sentencings resulting in a total of 112 months of imprison-
ment and probation, 10 indictments, 3 convictions, 6 administrative referrals, and
more than $289,000 in recoveries. Additionally, during the reporting period, the
Office of Investigations received and processed 706 Hotline complaints, an all time
record high number and a substantial increase in the number of complaints over
just a few years ago. For example, as reported in the Semiannual Report to Congress
for the exact same time period in 2007, the Office of Investigations received and
processed only 259 complaints. Not only has the number of OIG Hotline complaints
received and processed more than doubled in just 3 years, but this is the sixth consec-
utive reporting period in which there has been an increase in the total number of
complaints.

OIG conducted a joint investigation of a Department employee who embezzled
approximately $147,000 by selling U.S. Government property while serving in Iraq
and keeping proceeds for himself. A separate investigation of a Jordanian National
employee at Embassy Baghdad determined that the employee had embezzled more
than $243,000 by setting up an email account to control the transfer of money owed
to a contract company and then using that the email account to transfer the money
to his spouse’s bank account. During a joint investigation with DS, OIG discov-
ered that two overseas consular cashiers had processed suspicious refunds, resulting
in a loss of more than $319,000. While investigating a Bureau of Educational and
Cultural Affairs (ECA) subcontractor in a false claims allegation, OIG found that an
employee of the subcontractor had accepted grant money for a youth program but
failed to provide provisions outlined in the grant. The employee was charged with
mail fraud and ordered to pay $2,900 in restitution.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   7
      Oversight Activities in Support of the American Recovery
      and Reinvestment Act
      The American Recovery and Reinvestment Act of 2009 (Recovery Act) was enacted to
      preserve and create jobs; to increase economic efficiency by investing in technological
      advances in science and health care; to invest in transportation, environmental protec-
      tion, and other infrastructure that will provide long-term economic benefits; and to
      stabilize State and local budgets. The Recovery Act’s combined spending and tax provi-
      sions are expected to cost $787 billion over 10 years, including more than $580 billion
      in additional Federal spending. The Department of State received approximately $600
      million to carry out a variety of programs, including efforts to improve information tech-
      nology security and to build and operate new consular facilities in the United States.

      The Office of Inspector General received $2 million to provide oversight of Department projects
      funded under the Recovery Act. During this semiannual reporting period, OIG initiated seven
      projects to assess the extent to which Department projects met the accountability objectives of
      the Recovery Act. OIG’s Office of Audits issued two reports focused on Department compliance
      with new reporting requirements to promote transparency in the award and use of Recovery Act
      funds and made recommendations to improve accountability for the timely, prudent, and effec-
      tive spending of Recovery Act dollars. OIG also made recommendations related to the report-
      ing requirements, assessing the quality of the reported information, and using the collected
      information effectively to monitor and oversee Recovery Act programs and performance.

      Copies of these reports and other Recovery Act-related oversight activities can be
      found on OIG’s Recovery Act homepage (http://oig.state.gov/arra/index.htm).




    INTERNATIONAL BROADCASTING
    During this reporting period, OIG conducted an audit of BBG’s overseas nonexpend-
    able personal property, an inspection of Voice of America’s (VOA) Chinese branch,
    and several limited-scope reviews of BBG overseas operations.

    OIG conducted its Audit of Broadcasting Board of Governors Overseas Nonexpendable
    Personal Property at transmitting stations in the Northern Mariana Islands, the
    Philippines, Germany, and Sri Lanka to determine whether BBG could properly
    account for its nonexpendable personal property overseas. OIG found that capitalized
    assets included in the Property Inventory Processing System (PIPS)—BBG’s auto-
    mated property accounting system that accounts for all real and nonexpendable prop-
    erty, both capitalized and noncapitalized—were not always properly valued.Annual
    depreciation was overstated by as much as $1 million, and net book value for prop-
    erty, plant, and equipment was understated by as much as $19.7 million on BBG’s FY
    2009 financial statements—actions that warrant BBG’s review of the impact on its
    financial statements for FY 2009 and prior years. In addition, PIPS data on property
    could not be verified and was incomplete, and OIG could not verify that personal
    nonexpendable property in PIPS existed.


8                   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
During its Inspection of Voice of America’s Chinese Branch, OIG discovered that the
International Broadcasting Bureau has taken measures to deal with the Chinese
Government’s censoring of VOA’s Chinese branch Web site and jamming of its radio
frequencies. OIG recommended the Chinese branch develop a long-term strategy
that includes all the key elements of an effective business plan to help it meet the
challenges of reaching the Chinese target audience and decide on the most effec-
tive delivery systems in a world of rapidly developing communications technolo-
gies. To penetrate the Chinese market, the branch chief initiated negotiations with
a major cell phone company to install VOA English language programs into phones
intended for sale in the PRC, which give Chinese users the option to subscribe to the
programs. . Indications showed that the program, which went into effect in 2008,
was highly successful. The OIG team considered this initiative a best practice.

OIG conducted an investigation of a contractor who demanded kickbacks from
vendors and subcontractors doing business with a news-gathering organization under
contract to the Middle East Broadcasting Network (MBN), a wholly-funded grantee
of the BBG. During the course of the investigation, OIG uncovered the fact that the
contractor had also defrauded MBN by creating a separate company to double-bill
for as much as $250,000 in services already paid for under the primary contract.




             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   9
10   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
CONGRESSIONAL, MEDIA, AND 

OTHER OUTREACH ACTIVITIES
�


TESTIMONY AND BRIEFINGS
On April 15, 2010, Assistant Inspector General for Audits Evelyn Klemstine testi-
fied before the Senate Committee on Homeland Security and Governmental
Affairs Ad Hoc Subcommittee on Contracting Oversight regarding the joint audit
issued by the Inspectors General of the Departments of State and Defense, entitled
DOD Obligations and Expenditures of Funds Provided to the Department of State
for the Training and Mentoring of the Afghan National Police (MERO-A-10-06 and
D-2010-042).

On May 24, 2010, Deputy Inspector General Harold Geisel testified before
the Commission on Wartime Contracting on Updates, Trends, Issues Related to
Contract Oversight/Contracting. A key focus of the hearing was defining which U.S.
Government functions should be considered inherently governmental.

During this reporting period, OIG briefed congressional staff on several topics,
including:

   •	� OIG resources and current operations. Staff from the House and Senate
       Appropriations’ Subcommittees on State, Foreign Operations and Related
       Programs, attended in separate briefings on the same day. (April 28, 2010)

   •	� Issues surrounding the referendum for a new constitution in Kenya. Staff
       from the House Foreign Affairs Committee and the offices of Representatives
       Ileana Ros-Lehtinen, Christopher Smith, and Darrell Issa attended. (May 27,
       2010, and follow-up on July 14, 2010)

   •	� Interagency coordination and public communications related to the
       Department of State’s Haiti earthquake response. Staff from Senator Frank
       Lautenberg and Representatives Rush Holt and James McGovern attended.
       (Lautenberg and Holt, February 25, 2010, and April 20, 2010; McGovern,
       May 13, 2010; and all offices, June 29, 2010)




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   11
        •	� OIG’s investigation process and OIG’s Middle East oversight staffing at
            post. Staff from the offices of Senators Charles Grassley and Tom Coburn
            attended. (July 29, 2010)

        •	� Department and OIG plans and readiness for the transition of functions in
            Iraq from the Department of Defense to the Department of State. Staff from
            the House Committee on Oversight and Government Reform attended.
            (September 8, 2010)




     CONGRESSIONAL MANDATES AND REQUESTS
     During this period, OIG conducted reviews and issued several reports in response
     to Congressional mandates and requests, including directing and monitoring work
     conducted by independent external accountants for financial statement audits and
     related reviews mandated under the Chief Financial Officers Act of 1990 (P.L.
     101-576, as amended) and in response to oversight and transparency requirements of
     the American Recovery and Reinvestment Act of 2009 (P.L. 111-5). A full listing of
     reports issued by OIG during this reporting period can be found in Appendix 2 at
     the end of each agency section of this report.

     OIG issued two reports in response to Congressional requests: Review of Department
     Of State Activities Concerning the Draft Kenya Constitution (ISP-I-10-77) in response
     to a request from Representatives Darrell Issa, Ranking Member, House Oversight
     and Government Reform Committee; Ileana Ros-Lehtinen, Ranking Member of
     the House Foreign Affairs Committee; and Christopher Smith, Ranking Member
     of the Committee’s Subcommittee on Africa and Global Health; and Review of the
     Department of State Interagency Coordination and Public Communication Regarding U.S.
     Citizen Victims in the Earthquake-Destroyed Hotel Montana in Haiti (ISP-I-10-72) in
     response to a request from Senator Frank Lautenberg and Representative Rush Holt.




     LEGISLATION MONITORED
     Legislation and bills reviewed and monitored by OIG during the period included the
     following:

        •	� H.R. 2410, Foreign Relations Authorization Act, Fiscal Years 2010 and 2011;

        •	� S.3676, Department of State, Foreign Operations, And Related Programs
            Appropriations Bill, 2011;


12                Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
   •	� P.L. 111-212 (H.R. 4899), Supplemental Appropriations Act, 2010, as it 

       pertains to oversight funding in Pakistan, Afghanistan and Iraq;
�

   •	� P.L. 111-117 (H.R. 3288), Consolidated Appropriations Act, 2010, as it pertains
       to oversight funding;

   •	� P.L. 111-73 (S. 962. H.R. 3642), Enhanced Partnership with Pakistan Act of
       2009, as it relates to authorization of foreign assistance to Pakistan and the
       associated oversight; and

   •	� P.L. 111-5 (H.R. 1), American Recovery and Reinvestment Act of 2009, which
       provided OIG with $2 million to provide oversight for $600 million provided
       to the Department of State under the Act.




MEDIA ASSISTANCE AND OUTREACH
Media expressed interest in a broad range of OIG activities and initiatives, result-
ing in 25 direct inquiries covering 17 different issues. The reports drawing the
greatest number of media inquiries included Audit of Property Accountability at
Embassy Baghdad (MERO-A-10-07, April 2010); The Bureau of International
Narcotics and Law Enforcement Affairs Air Wing Program in Afghanistan and Pakistan
Performance Audit (MERO-A-10-03, March 2010); Report of Inspection: Embassy
Kabul, Afghanistan (ISP-I-10-32A , February 2010); and Report of Inspection: Embassy
Riyadh and Constituent Posts, Saudi Arabia (ISP-I-10-19A, March 2010). OIG senior
leaders were interviewed by several media outlets, including the Federal Times, the
Huffington Post Investigative Fund, The Washington Post, and the Center for Public
Integrity.

OIG made its reports available to the media, both directly and online through regu-
lar postings on its Web site, which has been reorganized and reconfigured to facilitate
access to recently published reports and make the site easier to navigate. During this
reporting period, reports related to Department activities concerning the draft Kenya
Constitution and training for Afghan National Police received the most attention.

OIG engaged in a variety of outreach activities, ranging from seminars and training
activities to meetings with American ambassadors and foreign ministry representa-
tives. The Deputy Inspector General and senior OIG staff briefed participants of
the Ambassadorial Seminar, which is attended by ambassadors-designate and their
spouses. The Deputy Inspector General and AIG for Inspections also met indi-
vidually with 23 ambassadors or ambassadors-designate prior to their departing on
assignment.



              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   13
     In June 2010, OIG senior staff briefed visiting Belgian foreign ministry staff on inter-
     nal audit and inspection follow-up procedures, and auditors presented information
     to Multinational Force and Observers (MFO) staff, Egyptian and Israeli delegations,
     and the Bureau of Near Eastern Affairs on OIG’s role in reviewing MFO finan-
     cial activities. OIG senior staff made presentations to more than 1,000 incoming
     Foreign Service officers and specialists and Civil Service employees, and on internal
     controls and program risk assessment to Department domestic bureaus and Financial
     Management Officer courses at the Foreign Service Institute.

     Within the oversight community, OIG assisted members of the Government
     Accountability Office in an audit of the Department’s continuous security monitor-
     ing system, known as iPost; provided samples of its inspection surveys to Department
     of Homeland Security OIG staff to serve as a template for future inspections of disas-
     ter field offices; and provided lessons learned and best practices to help update the
     Federal Emergency Management Agency’s Congressional Affairs Leadership Training
     Course.




14                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
DEPARTMENT 

  OF STATE
�
MIDDLE EAST REGIONAL OFFICE
�

Audit of Property Accountability at Embassy Baghdad
(MERO-A-10-07)
Embassy Baghdad had difficulty controlling and accurately accounting for its U.S.
Government property. Accountability for vehicles, non-expendable items, and
expendable supplies was affected by a number of factors including relocation to
the new embassy compound, the large size of the embassy and the number of U.S.
Government agencies represented, and inaccurate property records.

Standard and armored vehicles at the embassy were difficult to properly inventory;
some were unaccounted for and others did not appear in the Integrated Logistics
Management System (ILMS). The embassy may also have had excess vehicles. OIG
found missing non-expendable property; expendable property that was not properly
documented, missing, or of unknown disposition; unliquidated obligations (unfilled
or partially filled orders); and mismatches between the inventory and database of
medical supplies and pharmaceuticals. The embassy had an excess of hand-held
radios, and could potentially save nearly $936,000 by transferring them to other
posts. OIG found the embassy was being charged for unassigned cell phones and
overseas calls, and that assigned phones were underused or not used at all. OIG
calculated savings of more than $740,000 in cell phone charges. The embassy
planned to certify its FY 2010 U.S. Government property inventory, and OIG
concluded it would meet the deadline.

OIG made six recommendations regarding inventorying of vehicles at Embassy
Baghdad including entering all types of vehicles into ILMS, establishing written
procedures, denying fuel and maintenance until vehicles are accounted for, appoint-
ing a property survey board, and determining the appropriate size of the armored
vehicle fleet. OIG also recommended ensuring data on property, including medi-
cal supplies and pharmaceuticals, is entered into automated systems. The embassy
should develop a disposal plan for excess property and a plan to transfer excess radios,
establish procedures for issuance of expendable supplies, and reconcile unliquidated
obligations. Finally, OIG recommended the embassy develop written policies for cell
phone usage and take immediate steps to reduce cell phone costs.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   17
     The Second Worldwide Personal Protective Services Contract:
     Management by the Bureau of Diplomatic Security and Contractor
     Performance Capping Report (MERO-I-10-08)
     In fall 2008, MERO began its reviews of WPPS II contract management and
     contractor performance by examining the status of recommendations made by the
     Secretary of State’s Panel on Personal Protective Services in Iraq. This review was
     followed by performance evaluations of all three security contractors operating in
     Baghdad, Jerusalem, and Kabul. OIG identified several trends that weakened DS’s
     management and oversight of the WPPS II contract and task orders including U.S.
     Government direct-hire staffing problems, as well as issues with accounting for
     contractor personnel. Although protection was generally satisfactory, OIG found
     issues with personal security specialist training, the ability to fill some contractor
     positions, inventorying and storage of U.S. Government property, armored vehicles,
     explosives detection canines, and radios. DS responded quickly to OIG’s recom-
     mendations, and continues to improve the WPPS II program and to incorporate new
     policies and lessons learned into the new Worldwide Protective Services contract.

     Several U.S. Government direct-hire staffing issues strained program management
     including shortages of regional security officers (RSO) acting as contracting officer’s
     representatives (COR), high rates of annual turnover, rest and relaxation absences,
     and an excessive number of added responsibilities. Some RSO/CORs believed there
     was a lack of time and training, and inadequate guidance at post. OIG found some
     contract files were missing essential documents. A lack of written policies and proce-
     dures further hindered management. U.S. Government employees were not verifying
     the presence of contractor personnel by reviewing personnel rosters (muster sheets)
     before they were sent to contractor headquarters for invoicing and payment by DS.
     Lack of on-site validation meant contractor costs could not be certifiably determined
     or justified. DS responded to recommendations by hiring more staff members, offer-
     ing specific information on security contracts in the COR course, developing a COR
     checklist, and improving contract files. DS also established practices to resolve prob-
     lems with muster sheet review.

     OIG also found some problems associated with personal security specialist train-
     ing, staffing gaps, and management of U.S. Government-furnished property. DS’s
     compliance with OIG’s recommendations resolved these issues. DS also took steps to
     ensure the appropriate assignment and maintenance of armored vehicles, improve the
     explosives detection canine testing program, and enhance technical radio communi-
     cation expertise.




18                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Limited-Scope Review of Policies and Procedures for Vetting Foreign
Service Nationals at Embassy Kabul in Afghanistan (MERO-I-10-10)
OIG determined that the vetting and hiring processes at Embassy Kabul did not
violate the Department’s policy regarding nepotism. Furthermore, the separation of
duties and involvement of U.S. Government direct-hire employees in applicant selec-
tion and the granting of security certifications made it unlikely a systemic problem
could develop. OIG’s review of the application packages of all current Foreign Service
nationals (FSN) revealed ethnic percentages consistent with the general population
in the area and demonstrated a diverse Afghan workforce. OIG found the embassy
human resources office complied with Department policy, and that recruitment
procedures for the selection process had management controls to minimize the risk of
nepotism or favoritism due to ethnicity.

OIG found the regional security office, which grants security certifications to FSNs,
did not always follow Department policy in conducting local records checks of
applicants, maintaining records of interim security certifications, or training Foreign
Service national investigators (FSNI). First, the regional security office did not
conduct checks of FSN neighborhoods or appropriate host government and police
records. Second, the regional security office did not know how many temporary
security certifications had been granted, and thus could not grant timely extensions.
Finally, the regional security office was not complying with Department directives
stating that newly appointed FSNIs should take the FSNI basic training course
within 1 year of entering duty.

OIG recommended Embassy Kabul request conduct of the FSNI basic training
course. OIG also recommended the embassy comply with appropriate Foreign Affairs
Manual guidance regarding records checks before appointing an FSN, or seek a
waiver to this policy. Finally, Embassy Kabul should establish procedures for, and
begin tracking, temporary security certifications.


Evaluation of the Logistics Civil Augmentation Program at Embassy
Baghdad (MERO-A-10-12)
OIG found that Logistics Civil Augmentation Program (LOGCAP) cost expenditure
data did not provide the Department with sufficient information to ensure costs were
properly allocated and supported. Cost reports needed to be presented in shorter,
more meaningful time increments, and cost data also needed to more directly reflect
the actual service provided. Because of a lack of available data, OIG could not make
definitive conclusions on food services, equipment and facilities maintenance, and
fuel operations.

OIG found that Embassy Baghdad contributed to the lack of accurate information
on food service operations. The embassy enforced policies for logging attendance at


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   19
     snack areas that inaccurately inflated the amount of money spent on food. Dining
     facility personnel were not enforcing eligibility rules, leading to an undetermined
     number of unauthorized patrons eating in the facility. Although the contract requires
     the embassy to use an automated system for headcount data, manual headcount
     sheets comprised more than 80 percent of the total headcount, making it difficult to
     allocate costs.

     OIG determined that KBR (contractor) employees and subcontractors accounted for
     more than 75 percent of the contract’s costs; subcontractor and labor costs accounted
     for 98 percent of reported food service costs. According to embassy officials, however,
     over the last 3 years, no effort had been made to ascertain whether KBR’s staffing
     levels were appropriate.

     Once the U.S. military leaves Iraq, the embassy will be required to establish and
     manage its own services contracts. Success in procuring follow-on support contracts
     will be based on capturing accurate and pertinent cost information while the current
     LOGCAP contract still exists. This information will also help the Department
     reduce LOGCAP costs and could be the basis for increased cost control in follow-on
     support contracts.

     OIG recommended Embassy Baghdad require KBR to prepare cost reports with
     more information and electronically provide all FY 2009 headcount documenta-
     tion for the main dining facility. The embassy should discontinue the policy requir-
     ing patrons to scan their ID cards or sign-in each time they obtain a snack. KBR or
     appropriate personnel should enforce policies against unauthorized dining facility
     use. The embassy should maintain an up-to-date list of individuals authorized to
     receive LOGCAP support, create a bar code ID card for authorized dining facility
     patrons, and expand the use of the Joint Asset Movement Management System.


     Limited-Scope Review of the Bureau of Diplomatic Security’s
     Oversight of Explosives Detection Canine Programs (MERO-I-10-14)
     Between February 2009 and April 2010, OIG conducted a limited-scope review of
     three explosives detection canine programs managed by DS, two in Afghanistan
     and one in Iraq. During its review of these programs, OIG found systemic weak-
     nesses in canine test procedures that called into question the ability of the canines to
     effectively detect explosives. In all three cases, the contractors, rather than DS, were
     responsible for implementing the program and ensuring that procedures were being
     followed. The contractors were not testing for all mandated scents, were using old
     materials to train and test the canines, and were improperly storing testing materials,
     which may have led to cross-contamination.




20                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
OIG recommended DS employ an independent canine expert to verify annually the
detection capabilities of the contractors’ canines and determine whether contrac-
tors are complying with the U.S. Department of the Treasury’s Odor Recognition
Proficiency Standard for Explosives Detection Canines. DS should develop and
publish procedures detailing how to import fresh explosive materials and properly
store testing materials.


The Bureau of Diplomatic Security Kabul Embassy Security Force,
Performance Evaluation (MERO-A-10-11)
The Kabul Embassy Security Force (KESF) provided by ArmorGroup of North
America (AGNA) successfully ensured the safety of chief of mission personnel at
Embassy Kabul. However, AGNA failed in several instances to comply with contract
requirements, and DS did not hold the contractor accountable to these requirements.

AGNA was unable to maintain the number of guards or the quality level required
by the contract. Nepalese guards without verifiable experience, training, or back-
ground investigations were hired and put on duty. AGNA’s current control of U.S.
Government-furnished property was generally satisfactory, but the contractor could
not account for 101 missing U.S. Government-furnished weapons. Furthermore,
AGNA used U.S. Government-furnished weapons to train guards rather than
required contractor-furnished weapons. OIG calculated that AGNA’s loss and misuse
of these U.S. Government-furnished weapons cost the government $431,000. AGNA
did not adequately maintain training records, and existing records indicated guards
who did not meet the minimum qualification score on the firing range were quali-
fied by instructors. OIG also observed that firearms instruction was insufficient.
Weaknesses in explosives detection canine testing procedures included failure to test
for all required scents, use of expired and potentially contaminated testing materials,
and storage methods that may have led to cross-contamination.

DS did not verify the contractually required qualifications of KESF guards and did
not fully enforce required English language proficiency standards. OIG calculated
that penalties totaling $6 million could be imposed on AGNA for posting guards
without required English language proficiency. DS allowed AGNA to end canine
testing of an explosive commonly available in Afghanistan when the contractor could
not obtain the explosive, potentially putting the embassy at risk. DS did not provide
a sufficient number of U.S. Government-furnished weapons to the KESF, and some
guards shared weapons, which affected firing accuracy. The embassy’s regional secu-
rity office did not vet individuals whom AGNA regularly allowed unescorted access
to Camp Sullivan, a U.S. Government-owned property containing sensitive materi-
als, such as weapons.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   21
     OIG recommended DS establish standard procedures to vet contract employees.
     The Department should attempt to recover $433,000 from AGNA for improper
     use of U.S. Government-furnished weapons and unaccounted for weaponry, estab-
     lish standard procedures for firearms training, and provide a sufficient number of
     U.S. Government-furnished weapons to the contractor. DS should direct AGNA to
     re-institute canine testing for the explosive previously removed from the contract.
     English language proficiency levels of all guards should be assessed and appropri-
     ate action taken, the contractor should provide independently-assessed English
     language proficiency test scores for all future AGNA employees, and the Department
     should attempt to recover $6 million from AGNA for employing guards without the
     required proficiency. All unescorted visitors should be vetted prior to accessing Camp
     Sullivan, and the contractor should meet all health and safety standards at the camp.


     The Emergency Appeal Program of the United Nations Relief and
     Works Agency for Palestine Refugees in the Near East, Performance
     Audit (MERO-A-10-09)
     The United Nations Relief and Works Agency for Palestine Refugees in the Near
     East’s (UNRWA) Emergency Appeal program met the critical needs of nearly 2
     million Palestinian refugees in the West Bank and Gaza, and endeavored to meet
     mission objectives while carefully expending donor contributions. In 2008 and 2009,
     UNRWA effectively managed and implemented Emergency Appeal services in the
     West Bank and Gaza, reached intended recipients, and achieved intended results.
     Furthermore, OIG found no evidence of political interference or misappropriation of
     Emergency Appeal assistance.




           UNWRA food distribution center                                 A Palestine family with a food package


     Gauging and prioritizing the needs of Palestinian refugees has enabled UNRWA to
     plan programs, identify beneficiaries, and set timelines. UNRWA has also established
     program objectives and set performance measures to monitor and track accomplish-
     ments. The eligibility of applicants for services is adequately determined. Various


22                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
mechanisms are used to oversee and report on emergency programs and related proj-
ects, evaluate achievements, and monitor and adjust assistance as necessary.

UNRWA’s Emergency Appeal program in the West Bank addresses unemployment,
food insecurity, medical needs, environmental health problems, and protection of
refugee rights. In Gaza, UNRWA reached as many intended beneficiaries as possible
given import restrictions, border closures, and limited financial resources. UNRWA’s
2010 Emergency Appeal program will face many of the same challenges it did in
2008 and 2009. The program will again be aimed at communities in the West Bank
most affected by access restrictions and closures, and the entire population of Gaza,
with the goal of introducing a more targeted approach for relief assistance.

  Middle East Regional Office Annual Conference
  From September 21-23, 2010, the Middle East Regional Office (MERO) held its
  second annual conference in Egypt, with presentations from the Deputy Inspector
  General Harold Geisel as well as representatives from other other U.S. Government
  oversight agencies. The conference provided an opportunity for intensive discussions
  and gave MERO staff the chance to work as a team in one location, learn more about
  oversight in conflict and post-conflict areas, and sharpen their evaluation skills.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   23
24   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
AUDITS
�


SECURITY MANAGEMENT

Audit of Allegations Pertaining to Contract With DynCorp
International for the Security Sector Transformation Project in
South Sudan, Africa (AUD/SI-10-23)
OIG audited DynCorp International’s contract performance on the Security Sector
Transformation Project in South Sudan, Africa, to determine whether allegations
pertaining to timeliness of work completion, quality of construction (base camps),
and accuracy in progress reporting regarding DynCorp’s contract performance were
valid and supported. OIG also was to determine how much, if any, of the $52.8
million in contractor costs claimed (which exceeded the $40 million authorized ceil-
ing) the contractor was entitled to for reimbursement.

OIG found that Department personnel did not have adequate support for some of
its allegations regarding contractor performance and that the evidence demonstrat-
ing that fraud or malfeasance had occurred was insufficient. However, OIG did find
indications that DynCorp’s performance was inadequate and that these conditions
were caused to some extent by the lack of effective contractor oversight and monitor-
ing by Department personnel from September 2005 through August 2007.

OIG concluded that DynCorp should not be reimbursed the total amount of the
$12.8 million of additional costs claimed. This amount exceeded the task order-
funded amount of $40 million that was established by the contracting officer because
additional funding was never authorized for cost overruns. However, the contracting
officer had stated in an email that an additional $2.6 million had been incorporated
into the contract. Although there had been no formal increase in the authorized
Project’s cost, OIG believes this email exchange demonstrates a commitment by the
Department to increase the cost ceiling. Therefore, OIG believes the $2.6 million
(in addition to the $40 million ceiling that was authorized and paid) is a reasonable
reimbursement for the contractor.

OIG recommended the Department ensure that sufficient on-site technical support is
provided, that contract monitors have the experience and training needed to monitor
the contracts, and that DynCorp be offered the additional reimbursement of $2.6
million.


             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   25
     HUMAN CAPITAL AND INFRASTRUCTURE

     Embassy Baghdad Internal Controls for Overtime Pay
     (AUD/CG-10-25)
     OIG reviewed overtime expenditures for 2008 and 2009 and determined that
     American employees at Embassy Baghdad submitted 777,888 hours of overtime,
     totaling about $36 million, for those 2 years. During 2008, an average of 287
     (50 percent) of 570 Americans claimed overtime during each pay period, with a total
     cost for that year of $18,207,654. In 2009, an average of 352 (51 percent) of 695
     Americans claimed overtime during each pay period, with a total cost for that year
     of $17,745,039. Although the average number of claimants increased for 2009, the
     number of overtime hours actually decreased, from 400,875 to 377,013 hours. Since
     OIG’s audit, the embassy has initiated a program to monitor the number of over-
     time hours worked and to send quarterly reports to supervisors for an explanation of
     excessive amounts of overtime. While the embassy’s program assesses indications of
     potential abuse of overtime hours, it does not address compliance with supervisory
     authorization for overtime, supervisory approval of timesheets, or the provision of
     complete and accurate information to Charleston Global Financial Services Center
     (GFSC) for payment.

     The embassy did not have adequate internal controls to support the overtime
     payments because supervisors did not authorize overtime in advance of overtime
     performed, did not certify timesheets after the work was performed, did not certify
     overtime for payment in the proper period, and did not require time and attendance
     documentation to support overtime payments.

     Although staff at GFSC have made efforts to process embassy payrolls in a timely
     manner, GFSC needs to improve its quality controls for processing overtime pay and
     insist that American employees submit complete and accurate time and attendance
     data. At the time of OIG’s audit, each American employee at the embassy provided
     his or her own timesheet and supporting documentation directly to GFSC for payroll
     processing and manual entry into the Department’s payroll system. GFSC processed
     payments from time and attendance data that were incomplete, lacked supervisory
     and employee signatures, and did not have the required overtime authorization form.

     OIG made recommendations for the embassy to improve supervisory controls for
     compliance with Department regulations and post policies and procedures for autho-
     rizing and approving time and attendance and overtime, discontinue the practice that
     allows employees to submit time and attendance information directly to GFSC, and
     review for automation the inefficient manual time and attendance system between
     the embassy and GFSC.



26                Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Audit of Department of State Purchase Card Domestic Use
(AUD/SI-10-31)
OIG determined that selected purchase cardholders at the Department were not
following established internal control procedures for the purchase card program.
OIG made this determination during its audit of the program, in which it sampled
120 domestic transactions and tested up to 11 control activities for each transac-
tion, which totaled 1,179 internal control activity tests. From this sample, OIG
determined that 508 (43 percent) of 1,179 internal control activities tested were
noncompliant and that none of the 120 purchase card transactions reviewed
complied with all applicable internal control activities. In addition, the Bureau of
Administration, Office of the Procurement Executive (A/OPE), had last updated the
Worldwide Purchase Card Program Manual for purchase card program participants in
November 2006, which did not address important updated program requirements,
such as use of the mandated procurement system.

These conditions occurred because A/OPE officials, although aware of the need for
monitoring cardholders, as required by Federal guidance, stated that they do not have
sufficient numbers of personnel to monitor the cardholders but instead rely on bureau
program coordinators and approving officials to monitor cardholders. However,
monitoring by approving officials is a potential conflict of interest and an inadequate
separation of duties, and monitoring has not ensured cardholder compliance with
Department guidance. As a result, cardholders have split purchases, purchased unau-
thorized items, and disclosed purchase card account numbers to unauthorized indi-
viduals. In addition, the Department was deprived of cost savings that would have
resulted from having transactions properly entered and completed in the mandated
procurement system. Ultimately, the Department’s potential for improper, unauthor-
ized, and fraudulent use of purchase cards was increased.

OIG made recommendations for the Bureau of Administration to develop and imple-
ment a plan to monitor purchase card participants’ compliance with internal controls
that includes adequate staffing for monitoring the purchase card program and that
it issue an updated Worldwide Purchase Card Program Manual with current rules for
cardholders.


Audit of Maintenance and Improvements of Overseas Real Property
(AUD/FM-10-30)
OIG found that overseas posts’ FY 2009 maintenance and improvements (M&I)
(including routine maintenance and repair [M&R] and repair and improvement
[R&I]) needs were not met, primarily because the funding the Department received
was not sufficient to enable the Bureau of Overseas Buildings Operations (OBO) to
fund all needed M&I. Therefore, OBO established processes to use its limited funds



              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   27
     to address the most critical needs worldwide. These processes provided routine M&R
     funds to posts in a more equitable manner than had been done in past years and
     funding for the highest priority R&I requirements. However, inconsistencies in the
     priority scores assigned to some R&I requirements bring into question the reliability
     of the prioritization process.

     Also, the Department had not accurately reported deferred maintenance in its finan-
     cial statements. Specifically, it did not include deferred routine M&R estimated at
     about $46.4 million in the amount, and it inappropriately included R&I improve-
     ments with estimated costs of about $51 million, as well as R&I repair costs of about
     $2.1 million that were no longer valid.

     The Department did have internal controls in place to ensure M&I funds were spent
     for their intended purpose. Although M&I funds were spent for allowable purposes,
     posts did not always comply with OBO’s reporting requirements.

     The inconsistencies in the priority scores assigned to the R&I requirements may
     result from decisions made when R&I requests are processed or if posts do not
     provide all of the information necessary to score the requirements. As a result, some
     higher priority items may not be funded. In addition, the process OBO used to
     identify and report deferred maintenance did not capture routine M&R and did not
     ensure that all R&I requirements reported were maintenance related or were still
     valid. Inaccurate deferred maintenance reporting may affect the ability of OBO to
     justify its budget requests for M&R funding.

     OIG recommended OBO revise its Long Range Overseas Maintenance Plan to
     provide additional support for the Department’s annual budget request and that the
     Bureau of Resource Management continue to work with the Office of Management
     and Budget to obtain additional funds for M&I. OIG also recommended OBO
     require posts to provide additional information related to R&I requests to improve
     the reliability of OBO’s prioritization process, and that it make improvements to
     the process for identifying and reporting deferred maintenance, R&I project report-
     ing requirements, internal audits, and guidance related to the allocation of bulk
     purchases costs.




28                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
FINANCIAL MANAGEMENT

Independent Auditor’s Report on the International Boundary and
Water Commission, United States and Mexico, U.S. Section, 2009
and 2008 Financial Statements (AUD/FM-10-05)
OIG’s independent external auditor issued an unqualified opinion on the
International Boundary and Water Commission, United States and Mexico, U.S.
Section’s (USIBWC) annual financial statements as of and for the years ended
September 30, 2009 and 2008. The independent external auditor did not iden-
tify any material weaknesses related to internal control or material instances of
noncompliance.

Although the independent external auditor is the principal auditor of USIBWC’s
financial statements, OIG reviews the external auditor’s work to ensure it is sufficient
and acceptable. Sometimes OIG might disagree with the conclusions or judgments
of the external auditor, and if the disagreement cannot be resolved, OIG must deter-
mine the most appropriate way to report the disagreement.

OIG did not agree with the conclusions reached by the independent external auditor
on USIBWC’s accounting treatment of estimated costs to comply with court orders
to bring a wastewater treatment plant into compliance with environmental require-
ments. USIBWC has chosen to report this estimate as an environmental liability
on its 2009 and 2008 consolidated balance sheets. Because of its choice to record
this estimate as a liability, USIBWC has also posted a negative expense on its FY
2009 statement of net cost to reflect the amount it spent in FY 2009 on the project.
Certain notes, which are an integral part of the statements, also reflect USIBWC’s
decision to record the amounts as an environmental liability. OIG concluded that
USIBWC had materially departed from generally accepted accounting principles.
Because of the dollar magnitude of the transaction, OIG believes that USIBWC’s
FY 2009 and 2008 financial statements do not present fairly, in conformity with
accounting principles generally accepted in the United States of America, the finan-
cial position and cost of operations. OIG also concluded that the independent exter-
nal auditor should have included internal control deficiencies related to reporting
environmental liabilities in its report on internal control.


Management Letter Related to the Audit of the International
Boundary and Water Commission, United States and Mexico, U.S.
Section, 2009 and 2008 Financial Statements (AUD/FM-10-20)
During the audit of the International Boundary and Water Commission, United
States and Mexico, U.S. Section’s (USIBWC) 2009 and 2008 financial statements,


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   29
     the independent external auditor identified internal control weaknesses or instances
     of noncompliance with selected provisions of applicable laws and regulations relat-
     ing to property, plant, and equipment; undelivered orders; payroll compliance; and
     earned revenue. The auditor recommended USIBWC take appropriate action to
     address these weaknesses.


     Audit of Department of State Corrective Action Plan for Personal 

     Property and Equipment (AUD/FM-10-26)
�
     Audit of Department of State Corrective Action Plans for Financial 

     Reporting (AUD/FM-10-27)
�
     Audit of Department of State Corrective Action Plan for Real 

     Property (AUD/FM-10-28)
�
     At OIG’s request, an external contractor audited the Department’s corrective action
     plans (CAP) developed to address internal control deficiencies identified during the
     FY 2009 financial statement audit in the areas of personal property accounting,
     financial reporting, and real property accounting. The external auditor found the
     planned actions in the Department’s personal property accounting CAP were focused
     on addressing the root causes that were identified in the analysis of internal control
     deficiencies.

     In the area of financial reporting, the external auditor found that the CAPs were
     focused on critical functional areas but that they did not identify the root causes
     of the deficiencies or include specific planned actions or events for addressing root
     causes. The CAPs indicated that the Department planned to perform an additional
     analysis of critical functional areas essential to improving financial reporting within
     the Department. This additional assessment could serve as a basis for a formal root
     cause analysis and could lead to the subsequent development of specific actions to
     address the underlying causes of internal control deficiencies.

     In reference to the real property CAP, the external auditor found the Department
     did not perform a formal root cause analysis to identify the underlying causes of the
     deficiencies. Instead, management relied on its existing knowledge about the causes
     of the real property internal control weaknesses and the FY 2009 financial state-
     ment audit report. As a result, the planned actions only partially addressed the root
     causes identified by the external auditor. However, the external auditor reported that
     the Department’s planned actions would create compensating controls that, if put in
     place, would address several of the reported deficiencies.

     The external auditor recommended the Department perform a formal root cause
     analysis for the financial reporting and real property accounting areas and identified




30                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
opportunities for the Department to improve the quality and effectiveness of the CAPs
in the following areas:

   •	� Perform a formal level-of-effort analysis to assign resource levels to planned
       actions.

   •	� Assign accountability at a lower level and use the OMB Circular A-123,
       Appendix A, governance structure to monitor accountability for corrective
       actions.

   •	� Include measurable milestones and critical tracking metrics in the CAPs.

   •	� Leverage the OMB Circular A-123 assessment and testing process to validate
       the effectiveness of the outcomes of corrective actions.




CONTRACTS AND GRANTS

Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Financial Capability of AFS-USA, Inc.
(AUD/CG-10-16)
The independent public accountants determined that the financial condition of
AFS-USA, Inc., was acceptable for the organization to perform on government
grants in the near term. However, AFS-USA is highly dependent on Department
grants, without which the grantee’s viability would be questionable. The independent
accountants recommended AFS-USA be on a cost-reimbursement funding basis until
its financial condition has improved.


Independent Accountants’ Report on Audit of International
Boundary and Water Commission: Contract Award and
Management of Funds Provided by the American Recovery and
Reinvestment Act (AUD/CG-10-21)
In evaluating the International Boundary and Water Commission’s (IBWC) contract
administration and management controls for contracts with funds provided by the
Recovery Act, independent public accountants noted several challenges that IBWC
must address to ensure that Recovery Act objectives are met, including strengthening
data quality review policies and procedures. The accountants made recommendations
for IBWC management to improve internal controls and to ensure that Recovery Act
objectives are met.


             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   31
     Independent Accountants’ Report on Audit of Department of State
     Compliance With Transparency and Reporting Requirements of the
     American Recovery and Reinvestment Act (AUD/CG-10-22)
     In evaluating the Department’s compliance with the transparency and accountability
     reporting requirements of the Recovery Act, independent accountants noted several
     challenges that the Department must address to ensure that Recovery Act objectives
     are met. These challenges included strengthening data quality review policies and
     procedures. OIG made recommendations for Department management to improve
     internal controls and to ensure that Recovery Act objectives are met.




32                Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
INSPECTIONS
�


DOMESTIC INSPECTIONS

Inspection of Bureau of Administration, Operations of Office of
Emergency Management (ISP-I-10-43)
The Office of Emergency Management in the Bureau of Administration (A/
�
OEM) was performing well in carrying out its mission to manage and facilitate the 

Department’s domestic emergency preparedness program despite, until recently, 

modest staffing and resources. The director, supported by a staff of 30, ably leads the 

office of experienced and dedicated staff. The office is well regarded in and outside of 

the Department. 


In the past, A/OEM had suffered from a lack of funding and personnel while its 

workload had increased dramatically. Resource issues were being addressed; budget 

and staffing increases were expected in FY 2010 and were requested for FY 2011. 


Many of A/OEM’s most experienced employees, especially in the Diplomatic 

Continuity Programs Division, were eligible to retire. Collectively, these employees 

had hundreds of years of experience. A/OEM was planning for timely succession, 

particularly for those positions that require a high degree of specialized experience 

and technical skills.
�


Review of Support for Employees Who Are Serving or Have Served in
High Stress, High Threat, Unaccompanied Posts (ISP-I-10-44)
Department employees generally are very proud of their service in difficult places.
Nonetheless, 90 percent of survey respondents reported an unusual amount of
stress due to danger, separation from families, workload, leadership, and manage-
ment support, among other issues. Many also found their return to “normal” service
difficult.

In reviewing the Department’s support for these employees, OIG found consider-
able progress, especially due to the creation of a Deployment Stress Management
Program in the Office of Medical Services, the Foreign Service Institute’s High Stress
Assignment Outbrief, and programs the Family Liaison Office offers. OIG also


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   33
     found shortcomings, such as employees’
                                                                    On September 7, 2010, the Secretary sent
     continuing fear of seeking mental health
                                                                    an email to all employees thanking them for
     support, lack of clarity about which                           their hard work and commitment to excel-
     forms of counseling employees need to                          lence in serving their country and noting
     report on their security clearance forms,                      that their service comes “with sacrifice and
     wide variance in support from future                           unique stress.” The Secretary’s message
     supervisors, and low attendance at the                         stated that the Department had made it a
     Foreign Service Institute’s course.                            priority to provide access to social workers
                                                                    and mental health counselors, a mandatory
                                                                    high-stress outbrief program and training
     OIG recommended the Department
                                                                    for anyone who seeks it that included train-
     issue a high-level message that encour-                        ing for those returning from or working
     ages employees to seek consultations                           with returnees from high-stress posts. The
     with mental health professionals and                           message also informed employees that seek-
     explains which types of consultations                          ing mental health counseling or treatment
     need to be reported to DS (see sidebar).                       is not a threat to their security clearances,
     At the same time, OIG recommended                              and, that the Bureau of Diplomatic Security
     the Department offer additional coun-                          advised that receiving recommended treat-
                                                                    ment for mental health concerns is a favorable
     seling services and be creative in deter-
                                                                    factor in security clearance determinations.
     mining what kind of services to provide.



     Inspection of the Bureau of Administration’s Office of Global Infor-
     mation Services, Office of Directives Management (ISP-I-10-67)
     Overall, the Bureau of Administration’s Global Information Services, Office of
     Directives Management (A/GIS/DIR) was performing exceedingly well, in part
     because the organizational structure was effective. Employee morale was high, and
     employees were committed to providing good customer service. Most of the staff had
     an appreciation of A/GIS/DIR’s mission and how their individual efforts supported
     larger Department operations and goals.

     Two contractors were performing inherently governmental functions, and others were
     performing critical control roles. OIG recommended converting these positions to
     full-time equivalent positions.


     Implementation of a Process to Assess and Improve Leadership
     and Management of Department of State Posts and Bureaus
     (ISP-I-10-68)
     OIG inspections over the past 4 years have shown that while a majority of posts
     and bureaus are well-run, leadership in a small but significant minority needs to
     be improved. OIG assesses post and bureau performance including leadership



34                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
approximately every 5 to 8 years. That interval is far too long to ensure that posts
and bureaus are consistently managed effectively. OIG believes that it is the responsi-
bility of the Department to conduct its own assessments, based in part on input from
staff and to do so every year, especially at 1-year-tour posts. OIG recommended the
Department devise and implement a feedback system to assess managers regularly
and take appropriate measures to address and correct any deficiencies.


Inspection of Standards, Training, and Funding for Consular
Country Coordinators (ISP-I-10-73)
In recent inspections, consular inspectors have noted several instances where inconsis-
tent performance standards and a lack of training and resources for consular manag-
ers designated as country coordinators have negatively affected consular operations,
perhaps attributed to the lack of experience consular managers have in coordinating
with subordinates spread over large geographic areas. Conflicts in constituent posts
between the consular chief’s supervising principal officer and the consular country
coordinator were also places of concern in the efforts to conform to mission-wide
consular policies and procedures in coordination with Department regulations.

OIG made recommendations for the Department to create guidance on how often
a consular coordinator should visit constituent posts and to emphasize to regional
bureaus the importance of making funds available for these visits. OIG also recom-
mended the Department develop a training program and training material for
consular coordinators to alleviate the difficulties identified during recent OIG
inspections.


Inspection of the Bureau of Near Eastern Affairs, Office of Middle
Eastern Partnership Initiative (ISP-I-10-76)
The Bureau of Near Eastern Affairs, Office of Middle East Partnership Initiative
(NEA/PI), had faced a series of major challenges in the past 2 years—strengthening
the office structure institutionally, establishing continuity in senior leadership, and
creating standardized grant administration procedures. Although problems remained,
NEA/PI leadership had made impressive progress, putting in place a new flexible
organizational structure and a coherent grants management regime. The Tunis and
Abu Dhabi regional offices were performing well, playing an essential role in assist-
ing posts with local grants and in regularizing and standardizing grants management
procedures.

OIG recommended NEA/PI eliminate the nonfunctional Coordination and Evaluation
Division, transferring responsibility for the evaluation function to the Strategic
Planning and Resources Division. In addition, OIG recommended NEA/PI
establish more effective internal controls to assure that program expenditures by


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   35
     grantees are spent appropriately. More than $640 million was awarded to grantees
     with limited Departmental review of actual supporting documentation for funds
     expended. NEA/PI was establishing its capacity to evaluate and monitor in the field
     the Washington-managed grant programs that make up approximately 90 percent of
     the MEPI funds expended.



     OVERSEAS MISSIONS

     BUREAU OF AFRICAN AFFAIRS


     Inspection of Embassy Djibouti, Republic of Djibouti (ISP-I-10-50A)
     Without the Ambassador’s strong leadership, the sharply increased workload related
     to the U.S. military base and security/counterterrorism programs might have over-
     whelmed this small embassy. The public affairs officer was managing a busy opera-
     tion that, while dwarfed by the military base’s public diplomacy apparatus, had found
     a cost-effective niche in presenting the U.S. message. The constant influx of tempo-
     rary duty personnel and ranking visitors as well as construction of a new embassy
     compound challenged the small management staff, including the information tech-
     nology unit. The management section required continued high-level attention. The
     new embassy compound will consolidate management operations in one location and
     significantly improve day-to-day oversight of the entire management operation.


     Inspection of Embassy Addis Ababa, Ethiopia (ISP-I-10-51A)
     Executive direction at Embassy Addis Ababa was good for a front office in prolonged
     transition, with seven chiefs or acting chiefs of mission, five deputy chiefs of mission,
     and several office management specialists since July 2009. This situation reflected,
     in part, questionable personnel decisions by the previous leadership in the Bureau of
     African Affairs that also had impacted negatively on the political/economic section.

     As Embassy Addis Ababa has transformed into a busy mission with a heavy work-
     load, evident Washington interest, and a strong sense of task, morale had remained
     good, surprisingly so, given local conditions. Employees were working out of a dilapi-
     dated embassy in a construction zone. Salaries for locally employed staff were effec-
     tively declining because of local currency depreciation and high inflation. As a result,
     the mission had lost many valuable local employees.




36                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Inspection of Embassy Mbabane, Swaziland (ISP-I-10-57A)
The President’s Emergency Plan for AIDS Relief (PEPFAR) had rapidly expanded
programs and staff in Swaziland, creating space constraints and straining Embassy
Mbabane’s support services. As the program continues to grow, greater front office
involvement will be required. Relations among the PEPFAR coordinator, the U.S.
Agency for International Development (USAID), and the Centers for Disease
Control and Prevention were excellent. At the urging of the OIG team, the public
affairs section began attending PEPFAR staff meetings, and the two offices were
collaborating on a plan for increased communication, division of labor, and public
diplomacy activities.

Communication between the chancery and the compound housing PEPFAR,
the general services office, and the public affairs section were problematic. The
compound needed to be electrically grounded, and computer connectivity speed
needed to be increased to handle PEPFAR growth and Department-mandated,
Web-based computer programs.

The chancery’s location on the top floors of a Swazi Government building created
a series of management and safety problems that will not be addressed satisfactorily
until a new embassy is constructed.


Inspection of Embassy Lilongwe, Malawi (ISP-I-10-60A)
Embassy Lilongwe had done an excellent job managing a staggering increase in U.S.
foreign assistance to Malawi. Interagency coordination was seamless, and sound
management structures promoted effective cooperation across agencies. Similar inter-
agency cooperation extended to programs to promote democracy.

The Department and USAID had worked in concert to successfully consolidate nine
administrative support services. The remaining three areas were to be consolidated by
the end of June 2010.


Inspection of Embassy Harare, Zimbabwe (ISP-I-10-61A)
Embassy Harare had been able to support a dramatic increase in humanitarian assis-
tance and other programs despite space and logistical challenges, but the Ambassador
needed to provide more direction for these crucial programs, notably the President’s
Emergency Plan for AIDS Relief and governance.

The deputy chief of mission needed to tighten oversight of administrative opera-
tions. The management counselor needed to devote greater attention to International
Cooperative Administrative Support Services responsibilities and exercise stronger
and more transparent oversight of the section. Office space was inadequate; embassy


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   37
     staff members worked from five locations, including two commercial office build-
     ings. The general services officer deserved recognition for his progress in restoring
     management controls and providing needed services in a devastated local economy.

     The consular unit was so well-trained and managed that it was able to assist
     colleagues in the region. It paid strict attention to complex travel sanctions, directed
     primarily at Zimbabwean officials.


     Inspection of U.S. Mission to the African Union (ISP-I-10-65)
     After a troubled beginning, the U.S. Mission to the African Union had repaired
     relations with the bilateral embassy and was working more closely with African
     Union leadership. This reflected the Ambassador’s strong leadership and the effective
     work by Department and Department of Defense officers. Mission strategic goals,
     however, were not entirely consistent with major U.S. Government objectives, and
     OIG recommended the Department initiate a policy review.

     Mission staffing was outpacing the African Union’s own efforts to empower and inte-
     grate itself as a multilateral institution. The Department and other agencies were not
     giving adequate scrutiny to staffing. The unrestrained growth was crowding the new
     embassy compound before it opened; OIG recommended a freeze on staff increases
     prior to a rightsizing review.


     Compliance Follow-up Review of Embassy Banjul, The Gambia
     (ISP-C-10-52)
     Embassy Banjul complied with most of the formal and informal recommendations
     contained in the report of the 2009 inspection. The record of compliance with
     recommendations in the security annex to that inspection was less successful. This
     compliance follow-up review (CFR) reissued recommendations and redirected action
     on many of the physical security issues.

     Morale at Embassy Banjul was improving but fragile. Management at Embassy
     Banjul had been weak. Record keeping was in disarray with many documents miss-
     ing or actions not carefully documented. American employees had departed Banjul
     without settling outstanding personal accounts. The response to the 2008 inspec-
     tion’s recommendation relative to the chief of mission’s management control state-
     ment was pro forma, and the relevant recommendation was reissued by the CFR
     team.

     The facilities on the chancery compound were unattractive and inefficient. Major
     flooding issues needed to be addressed. High priority should be given to identifying
     an alternative site for the embassy.


38                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Inspection of Embassy Maseru, Lesotho (ISP-I-10-58A)
U.S. relations with Lesotho had prospered under the Ambassador’s stewardship, but
Embassy Maseru had a mixed record coordinating the dramatic increase in U.S.
assistance programs in the country. To improve management of PEPFAR, OIG
recommended the Ambassador have full responsibility for all management and policy
issues related to the program and that the embassy work with USAID on a compre-
hensive review of staffing requirements, management structure, and the role of the
program coordinator. OIG also recommended the embassy establish a mechanism for
reviewing and resolving disputed claims about the use of PEPFAR funds.

The management section had been stretched to the breaking point supporting the
large and growing assistance programs. However, the section had successfully reno-
vated the embassy’s warehouse into PEPFAR office space and did so under budget
and ahead of schedule. On the other hand, office space for the consular section was
deficient to the point of weakening operations. OIG recommended the Department
design, fund, and implement a plan to resolve the problem.


Review of Department of State Activities Concerning the Draft
Kenya Constitution (ISP-I-10-77)
OIG conducted a special review focused on Department officials’ activities and
public statements concerning Kenya’s draft constitution, which was the subject of
a nationwide referendum vote on August 4, 2010. The review was conducted in
response to a request from Representatives Chris Smith, Ileana Ros-Lehtinen, and
Darrell E. Issa to determine whether, in the course of promoting a reform agenda
for the nation of Kenya, any Department appropriations were used to lobby for or
against abortion, in violation of the Siljander Amendment.

The U.S. Ambassador to Kenya had made it clear that the U.S. Government
supported the constitutional reform process and told the inspectors that he had
not explicitly taken a position asking Kenyans to vote “yes” on this draft. The U.S.
Ambassador to Kenya had, however, speaking on behalf of the Administration, been
a vocal supporter of Kenya’s comprehensive reform agenda (the central element of
which was reforming the constitution).

OIG did not find any evidence that U.S. Embassy officials made any private or
public statements to Kenyan Government officials, nongovernmental organizations,
or any other actors expressing either a positive or negative position on the abortion
provision in the draft Kenyan Constitution. OIG also did not find any evidence that
embassy officials attempted to influence any Kenyan’s opinion, either positively or
negatively, on the abortion provision.




             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   39
     BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS


     Inspection of Embassy Kuala Lumpur, Malaysia (ISP-I-10-74A)
     Embassy Kuala Lumpur had taken advantage of an historic opportunity to advance
     U.S. strategic interests in counterproliferation and counterterrorism and to improve
     historically cool U.S.-Malaysian relations. The executive leadership had effectively led
     the embassy’s growing engagement with Malaysia on a broad range of issues.

     The embassy had managed well a significant growth in personnel and pace of activi-
     ties. Funding for an FY 2014 major rehabilitation project to address property issues
     at the chancery compound was uncertain. Phasing in elements of the project could
     increase the likelihood of needed improvements being completed.

     The Fulbright Commission in Malaysia, known as the Malaysian-American
     Commission on Educational Exchange, was operating under a bilateral agreement
     that expired in 2005. Since that date, the binational board of governors that oversees
     Fulbright operations had ceased, as had the Malaysian Federal Government financial
     contribution to the program. Mid-level negotiations had dragged on for 5 years with
     no success. OIG recommended that the embassy place a priority on concluding an
     agreement.

     For the most part, the embassy’s executive leadership had used the National Security
     Defense Directive 38 (NSDD-38) process effectively to plan and execute an orderly
     growth of embassy staff in areas where the United States can achieve the great-
     est benefit, while also using the process to deny growth where it is not justified. In
     one case, however, the embassy response did not adequately assess the need for the
     proposed services of an assistant regional security officer for investigations. OIG
     recommended the position be eliminated.


     Inspection of Embassy Vientiane, Laos (ISP-I-10-75A)
     Embassy Vientiane was continuing to provide excellent support to the long-standing
     U.S. interests of recovering the remains of Americans from the Vietnam conflict and
     in assuring the legal emigration of qualified Hmong and other Lao citizens. In addi-
     tion, Embassy Vientiane had grown in the size and scope of its mission in response to
     new opportunities for positive engagement with the Laotian Government in the areas
     of military, health, and law enforcement.

     The embassy had addressed a long-term U.S interest in securing an appropriate diplo-
     matic platform, by accepting a property swap with the Laotian Government to secure
     the real estate for a new embassy compound, the construction of which might start
     in 2011. This action responded to a recommendation made in the 2003 inspection of
     Embassy Vientiane.

40                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
An inconsistent arrangement for funding was weakening the U.S. Government’s
planning and execution of its largest, most successful humanitarian program in
Laos—removing or destroying millions of unexploded ordinance left over from the
U.S. bombing of Laos during the Vietnam conflict. OIG recommended more consis-
tent and reliable annual funding for this program.


Inspection of Consulate General Hong Kong, China (ISP-I-10-78A)
Consulate General Hong Kong was effective and well-coordinated in pursuing its
three main objectives: law enforcement cooperation; supporting democratic reform;
and, supporting U.S. business, including in Macau where there is substantial U.S.
investment in the gaming and convention sectors. The public affairs section was
making excellent use of Hong Kong’s open media environment to carry out well-
focused information and exchange programs. Given the number of mainland
Chinese in Hong Kong and the Hong Kong media’s reach, the public affairs section’s
activities impacted the mainland as well as local audiences.

OIG identified a number of ways the consulate general could save money, includ-
ing eliminating several positions and downgrading others. OIG recommended the
consulate general review its office space needs when leases expire and assign hous-
ing based on current Department guidelines. OIG also recommended the consulate
general and the Department review whether consulate employees ought to continue
to receive rest and recuperation travel.


Inspection of Embassy Beijing, China, and Constituent Posts
(ISP-I-10-79A)
Managing Mission China’s dramatic growth is a fundamental challenge for the
Department. The number of reporting officers and other agency staff in recent years
has expanded beyond the ability of management to provide adequate support, partic-
ularly in information technology. The additional management position requests in
the current Mission Strategic and Resource Plan should be funded.

Demand for nonimmigrant visas was swamping the mission’s consular sections.
Starting in March 2010, appointment wait times had lengthened, underlining the
need for better management by the consular country coordinator and greater involve-
ment by the Ambassador and deputy chief of mission. Consulates General Beijing,
Shanghai, Chengdu, and Shenyang required new or reconfigured facilities, and a
concerted effort should be made to lengthen visa validity on a reciprocal basis.

Mission China was carrying out creative and far-reaching public diplomacy programs
despite vigorous Chinese Government efforts to block them. Use of electronic media,
outreach programs, and virtual presence posts had been particularly successful.


             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   41
     Supporting a growing number of official visitors, notably to Beijing and Shanghai,
     consumed too much time in terms of both reporting and management staff, in a
     country with increasingly sophisticated travel services. Mission China could reduce
     employee overtime and stress by streamlining the services it provides visitors.


                    BEST PRACTICE: Electronic Outreach in China

                    Embassy Beijing’s public affairs sections have developed and used new media
                    programs—blogs, Web chats, and the Twitter social networking service—to
                    reach out directly to almost 400 million Internet users in China, 78 percent
                    of whom depend on the Internet for their news. Realizing that Web program-
                    ming is most effective when it takes place outside the embassy’s Web site, the
                    public affairs section has been cooperating with local Chinese Web portals and
                    news Web sites on a number of outreach programs. Through its development
                    and use of new media tools and its cultivation of Chinese online contacts, the
                    public affairs section has been able to significantly increase dissemination and
                    placement of information, despite great obstacles.




     BUREAU OF EUROPEAN AND EURASIAN AFFAIRS


     Inspection of Embassy Ankara, Turkey (ISP-I-10-55A)
     The substantive expertise of mission leaders and staff and their strong language
     capabilities ensured U.S. understanding of Turkey’s motives and goals, unambiguous
     guidance to Washington agencies about how to deal with Turkey, and skilled interac-
     tion with the Turkish Government on the host of regional and global issues on which
     the United States engages with Turkey.

     In 2004, OIG recommended the Department purchase land and build a new
     embassy. Six years later, this still had not happened and the need for a new embassy
     compound had grown more intense. OIG recommended the Department take imme-
     diate action to acquire a new site or build a new compound on the existing site.

     Surveys revealed that customers were dissatisfied with the management section, and
     OIG found deficiencies in all three management sections. OIG made many recom-
     mendations to address shortcomings, including conducting an annual review of all
     position descriptions; improving the supply chain management system; regularly
     reviewing unliquidated obligations; and establishing better procedures to document
     the salaries of employees authorized official residence expenses.



42                Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
                BEST PRACTICE: Saving Energy by Going Green in Turkey

                In cooperation with the Bureau of Overseas Buildings Operations, Consulate
                General Istanbul is working with a contractor and taking advantage of unused
                land on the compound to design a photo-voltaic farm that will provide renew-
                able energy for the consulate. The consulate also is exploring the option of
                using wind as an alternative source of electricity and is replacing the current,
                1,000-watt security lights that cover its 20-acre compound with fixtures that
                use more energy-efficient light emitting diodes. These changes will money,
                reduce the consulate’s carbon footprint, and serve as a model for Department
                missions around the world.




Inspection of Embassy Nicosia, Cyprus (ISP-I-10-56A)
Embassy Nicosia was well disciplined in promoting the U.S. policy objective of
supporting reunification of the divided island of Cyprus. The Ambassador and
mission personnel acted and spoke prudently to avoid sparking resentments regard-
ing the political division of the island. The positive interaction between the embassy’s
Greek Cypriot and Turkish Cypriot employees set an example that a fully integrated
Cyprus could follow in the future.

The embassy was both forward thinking and reasonable in planning for the possi-
bility of political progress in Cyprus. Should a breakthrough occur, more embassy
reporting, analysis, and assistance would be needed. The embassy’s strategic plan
included the commensurate resource requirements. In the meantime, the U.S.
Government owned dilapidated buildings in northern Cyprus. The inspectors recom-
mended the embassy take steps to restrict access to these facilities to prevent acciden-
tal death or injury.

Embassy Nicosia had an effective structure to coordinate most law enforcement,
counternarcotics, counterterrorism, and nonproliferation activities. There were weak-
nesses, however, in applying Leahy amendment provisions to candidates for training
in these fields. The inspectors recommended centralizing the compliance process in
the political section and providing annual training to all involved in the process.


Inspection of Embassy Rome, Italy, Its Constituent Posts, and the
Republic of San Marino (ISP-I-10-59A)
The U.S. Mission to Italy is large and complex. In addition to Embassy Rome, Italy
also hosts three U.S. consulates, three consular agencies, the U.S. Embassy to the
Holy See, the U.S. Mission to UN Agencies in Rome, and a large U.S. military



              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   43
     presence. The embassy’s public affairs section was doing an outstanding job coordi-
     nating public diplomacy with U.S. military elements in Italy. Each year, it sponsors
     a conference bringing public diplomacy officers and other officials from the embassy
     and consulates together with military public affairs officers. The conference builds a
     shared sense of mission and message.

     Embassy Rome’s paramount resource issue was obtaining funding for its aging and
     historic infrastructure at Embassy Rome and Consulate General Florence. This
     legacy responsibility will continue to require significant financial commitments.

     The embassy’s section chiefs and officers were managing their portfolios well. The
     inspectors recommended they engage more, however, with consulate personnel.
     Reporting was generally of high quality. Consular operations were well funded and
     staffed. The consular agencies in Venice, Genoa, and Palermo were providing excep-
     tional service for a very small investment. OIG made recommendations for potential
     cost savings on furniture and to reduce duplication and inefficiency in nonexpend-
     able supply and property management.



     BUREAU OF NEAR EASTERN AFFAIRS


     Program Review of Refugee Coordination in Jerusalem (ISP-I-10-29)
     The Office of the Refugee Coordinator in Jerusalem carried out the full range of
     the position’s mandated functions throughout its area of responsibility. The refu-
     gee coordinator was fully integrated into the political section of Consulate General
     Jerusalem, and the coordinator’s input was important in key reporting from the
     consulate general. The refugee coordinator provided ample reporting to the Bureau of
     Population, Refugees, and Migration (PRM) and other U.S. government constituen-
     cies. PRM consulted closely with the refugee coordinator in developing U.S. positions
     to represent to the United Nations Relief and Works Agency for Palestine Refugees in
     the Near East (UNRWA).

     The two-person office was inherently limited in its capacity to monitor 58 refugee
     camps, hundreds of schools, and health clinics (many of them outside the camps),
     and 30,000 staff members serving 4.7 million people. This meant that the office
     depended on UNRWA for information that the office lacked the resources to verify
     independently. OIG recommended the refugee coordinator and PRM work with
     UNRWA to improve the timeliness and quality of information that UNRWA
     provides and that the refugee coordinator track the outcome of actions that bear on
     UNRWA’s neutrality.




44                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
U.S. contributions directed to UNRWA’s special projects (e.g., schools, health clinics,
and community centers) had high visibility and demonstrate U.S. interest in improv-
ing the living conditions of Palestinian refugees.


Inspection of Humanitarian Mine Action Programs in Iraq
(ISP-I-10-41)
The Department has spent more than $120 million since 2003 to clear mines in
areas controlled by the Iraqi Government. However, despite U.S. aid and Iraq’s own
pledge to be mine-free by 2018, little clearance of the estimated 20 million mines or
other unexploded ordnance had occurred in central and southern Iraq—the areas
controlled by the government in Baghdad. In contrast, more than $20 million in
mine action programs had been successfully implemented in areas under the control
of the Kurdistan Regional Government.

Lack of action in areas the Iraqi Government controls was due to several reasons,
including: instability and lack of security; a lack of commitment on the part of the
Government of Iraq; corruption; bureaucratic obstacles; sectarianism; and an appar-
ent lack of grassroots pressure for mine action. The Iraqi Ministry of Defense has also
greatly hindered humanitarian mine action by foreign organizations. All humanitar-
ian mine action by foreign organizations was at a halt during the inspection.

OIG recommended Embassy Baghdad raise the mine action program with the high-
est levels of the Iraqi Government to ascertain its level of commitment and coop-
eration. The inspectors also recommended the Bureau of Political-Military Affairs
review Iraq’s cooperation and consider reallocating mine action resources where they
can be more effective, either within Iraq or elsewhere. The inspectors recommended
the Bureau of Political-Military Affairs update its standard operating procedures to
ensure that future programs that are set up without time to conduct the standard
country planning process include an alternate method to measure program imple-
mentation. OIG also made a series of recommendations about publicizing the U.S.
effort.


Inspection of Embassy Abu Dhabi and Consulate General Dubai,
United Arab Emirates (ISP-I-10-62A)
Embassy Abu Dhabi was effectively managing a bilateral relationship that had grown
dramatically in key areas such as U.S. exports and business opportunities, military
ties, political cooperation, and official visitors. The embassy needed the Department’s
support in negotiating with DOD for a suitable arrangement to support adminis-
tratively, under chief of mission authority, a multibillion dollar foreign military sales
agreement that had enormous implications for the U.S. defense industry.



              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   45
     Consulate General Dubai was the principal field post for matters related to Iran. It
     also was managing a staggering number of U.S. Government visitors. In 2009, there
     were approximately 250 visits that required front office involvement. The mission
     leadership agreed that they want to transform the visitor workload into an asset. The
     embassy had an unparalleled opportunity to make U.S. Government policymak-
     ers aware of what could be accomplished through a healthy U.S.-U.A.E. partner-
     ship. The public diplomacy operation could harvest a rich yield of leading American
     speakers and expertise in almost any field. The Foreign Commercial Service, habitu-
     ally understaffed, was annually turning away hundreds of American businesses
     seeking help to enter an export market that was buying more than a billion dollars a
     month in American goods. OIG made recommendations to improve the operations
     and management controls of the embassy and consulate general.


     Inspection of Embassy Sanaa, Yemen (ISP-I-10-63A)
     Embassy Sanaa had become the key forward operating base for the broad spectrum
     of counterterrorism efforts against al-Qaeda in the Arabian Peninsula. Under the
     leadership of an effective and respected Ambassador, embassy staff were fortify-
     ing and expanding bilateral relations. However, the U.S. Government needed to
     pay more attention to long-term planning and goal setting. The OIG team recom-
     mended Embassy Sanaa develop a unified, clearly articulated vision for U.S. policy in
     Yemen, to drive whole-of-government planning and goal setting over the next 5 years.
     The OIG team also recommended Embassy Sanaa establish a broad, interagency-
     supported strategic communication plan, to assess the Yemeni perceptions of U.S.
     policy and to develop ways to foster greater Yemeni understanding of U.S. actions
     and intentions.

     The consular section was performing admirably but, given the terrorism threats in
     Yemen and pervasive fraud, staffing shortages and resulting backlogs were increasing
     the risk to U.S. homeland security. The inspection team made several recommenda-
     tions, including that the embassy analyze and quantify the backlog as a first step
     toward identifying resources needed to eliminate it, fill vacancies among the locally
     employed staff as soon as possible, and designate a full-time fraud officer as soon as
     resources permit.

     With the exception of Department elements, staffing at the embassy was growing
     rapidly. This growth was affecting performance in several ways. For example, there
     was the need for a common communication strategy among agencies for explaining
     American policy in its larger context to Yemeni leaders and public. There also were
     resource implications. The management section was providing commendable support
     to both permanent staff and the large number of temporary duty employees, but the
     latter were not reimbursing the embassy sufficiently. OIG recommended the embassy
     establish a written policy for charging temporary duty visitors for International
     Cooperative Administrative Support Services.


46                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Inspection of Embassy Muscat, Oman (ISP-I-10-71A)
Embassy Muscat was doing an excellent job in advancing U.S. interests in Oman
and strengthening this important bilateral relationship. The Ambassador and deputy
chief of mission were accessible, provided clear strategic vision and sound substantive
guidance, and promoted close interagency coordination.

The embassy’s top goals of ensuring regional stability and cooperation were reflected
in an extensive and growing program of military cooperation. Department of
Defense entities constituted one-half of the personnel of the mission. Relations
between them and the rest of the embassy were close and productive.

The embassy had achieved notable success with its outreach efforts, including
programs funded through the Middle East Partnership Initiative, as well as a range of
traditional educational and cultural exchange programs.


BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS


Inspection of Embassy Islamabad and Constituent Posts, Pakistan
(ISP-I-10-64A)
The staff of Embassy Islamabad and the three constituent posts were dedicated to the
success of the President’s strategy for Afghanistan and Pakistan, spending long hours
and immense physical and intellectual effort to meet the demands of the recent rapid
growth in staffing and programs generated by increases in funding. Violent extremist
organizations, including al-Qaeda, operating in and from Pakistan were committed
to destabilizing Pakistan’s democratically elected Government and attack the United
States and its interests. In almost every decision, embassy leaders balanced the imper-
ative to pursue without reserve the President’s strategy for Pakistan against the risk to
life for mission staff. Risk management was a full-time job.

Life in Pakistan for mission staff was difficult and will remain so for some time.
Special compensation and incentives for work in a high-danger environment,
together with awareness that employees were contributing to one of the President’s
most important priorities, was a source of satisfaction for many.

The demands for new staff to support visitors, reporting, representation, engagement,
and other priority tasks posed significant challenges for mission staff. Although the
mission produced quality reporting, coverage of issues was uneven. Time spent on
high-level visitor support had an adverse impact on the volume of reporting. The
embassy needed to reinvigorate its political and economic reporting by consulting
Washington agencies and developing achievable, countrywide political and economic
reporting plans that reflect policy priorities and user needs.


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   47
     The sophistication of consular fraud, official corruption, the potential for links
     between fraud and international terrorism, and the pull of the U.S. economy for
     economic migrants combined to make fraud prevention work in Pakistan challenging
     and demanding. The lack of personnel resources in the consulates also limited overall
     fraud detection and prevention efforts. OIG made recommendations to strengthen
     the fraud referral process and fraud prevention management.

     Despite the embassy’s best efforts, continuing obstacles from the Government of
     Pakistan, including land and property acquisition to address space and infrastructure
     challenges, could impair the embassy’s ability to provide a management platform for
     the achievement of U.S. foreign policy goals. In Islamabad, the $1 billion construc-
     tion plan to replace nearly all facilities may be delayed by problems in land acquisi-
     tion due to host national inaction; in Karachi, the consulate had outgrown the new
     compound before moving in; and in Peshawar, efforts to locate a suitable property
     had proven difficult although the host nation offered a new option that would soon
     be evaluated for feasibility. The consulate in Lahore could accommodate expected
     growth but needed physical upgrades.

     After a hiatus of more than 13 years, the embassy was considering reestablish-
     ing nonimmigrant visa services in Lahore in response to interest by the Special
     Representative for Afghanistan and Pakistan. The OIG team believed the embassy
     should not reinstitute nonimmigrant visa services in Lahore. Further devolution of
     Pakistan’s moderate but complex nonimmigrant visa workload was not in the inter-
     est of consistency, efficiency, or management oversight, and would increase security
     vulnerabilities.

     The embassy managed foreign assistance coordination effectively. In the near term,
     the embassy needed to manage the substantial and growing funding pipeline and
     develop strategies to monitor performance in high-risk areas.




48                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
                BEST PRACTICE: Auto Reply Frequently Asked Questions
                for Visa Inquiries via Email

                Consular sections worldwide receive most of their inquiries about general visa
                practice and case status via email to a group mail box. Even with extensive use
                of templates designed to answer the most common questions, it is a time-
                consuming process to read each email, select the appropriate templates, and
                integrate them into a response. Embassy Islamabad analyzed its immigrant
                visa and nonimmigrant visa mailboxes to identify the most frequently asked
                questions and created an automated email response that includes the answers
                to those questions in a clear narrative tailored to the Pakistan clientele. At the
                end of the auto response page, inquirers whose questions are not addressed by
                the automated response are advised to forward their question to another email
                address, where it is given personalized attention. As a result of the automated
                response, the number of email inquiries requiring a personal reply has been
                reduced by 50 to 70 percent, and the public is served more promptly because
                the auto response operates 24 hours a day.




Inspection of Embassy Dhaka, Bangladesh (ISP-I-10-82A)
Managing mission growth was a challenge for all embassy sections and agencies. The
high profile that Embassy Dhaka was experiencing within the U.S. Government,
as well as in Bangladesh, had led to an increased focus on a number of develop-
ment and democracy initiatives. Mission leadership was aware of the constraints to
continued growth, but was also committed to taking advantage of a unique moment
in the history of U.S.-Bangladesh relations. The time when the Ambassador should
start denying requests for additional programs and staffing had not come, but was
imminent.

Dhaka is scheduled for a new embassy annex in FY 2022, a date that was set before
the recent dramatic increase in programs and activities. Twelve years is too long to
wait to respond to these changed circumstances. To meet expanding work space
requirements, the Bureau of Overseas Buildings Operations needs to review the
changed situation in Dhaka and determine how best to provide a physical platform
adequate to support U.S. policy.

The consular section had faced serious challenges in recent years, including a rapidly
growing workload, serious staffing gaps, and one of the toughest visa fraud environ-
ments anywhere. The new section chief made progress in addressing major problems,
including getting more resources for the section.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   49
     BUREAU OF WESTERN HEMISPHERE AFFAIRS


     Review of the Department of State Interagency Coordination and
     Public Communication Regarding U.S. Citizen Victims in the
     Earthquake-Destroyed Hotel Montana in Haiti (ISP-I-10-72)
     Following an unprecedented natural disaster, the Department was very effec-
     tive in coordinating the Federal Government response, including the recovery of
     American citizen victims of the Haiti disaster. The Department’s Under Secretary
     for Management deserves great credit for the successful interagency coordination.
     Although successful this time, a risk exists if there is no Department process to
     determine operational leadership in the event of massive and complex overseas crises.
     The Department agreed to establish procedures to determine and communicate,
     including to Members of Congress and to the general public, who will be the senior
     Department official with responsibility for crisis response in the event of future
     extraordinary emergencies.

     The Bureau of Consular Affairs and the consular section of Embassy Haiti also
     deserve great credit for responding to a disaster of enormous magnitude and duration.
     The embassy staff in particular, victims themselves, served Americans and Haitians
     and provided critical assistance. However, consular crisis management software
     proved inadequate to meet the needs of the task force and embassy during a crisis of
     this size. It needs to be upgraded on the basis of lessons learned to be more effective
     in the future.




50                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
INVESTIGATIONS
�

EMBEZZLEMENT

OIG conducted a joint investigation with the Special Inspector General for Iraq
Reconstruction, the Defense Criminal Investigative Service, and the Federal Bureau
of Investigation (FBI), involving a former Department employee who embezzled
approximately $147,000 while serving in Iraq. The embezzlement involved a complex
fraud scheme in which the employee sold U.S. Government property and kept the
proceeds for himself. On July 22, 2010, the former employee was indicted in U.S.
District Court for the Southern District of Texas on four counts of wire fraud and
one count of conversion. If convicted, he faces 20 years in prison and a $250,000 fine
on each of the wire fraud counts. If convicted on the conversion charge, he faces a
maximum of 10 years in prison and a $250,000 fine. Prosecution is currently pend-
ing. (10-068)

OIG conducted an investigation of a Jordanian National employee of the U.S.
Embassy in Baghdad who set up an email account to control the transfer of funds
that were to be paid to a company providing contracting services to the embassy.
He then used that email account to direct the deposit of the funds to his spouse’s
bank account. In total, $243,416 was funneled to the bank account the subject’s wife
between September 2008 and June 2010. On August 16, 2010, OIG agents arrested
the subject at Dulles airport as he was flying into the United States. Prosecution of
the subject is pending. (10-037)

OIG conducted a joint investigation with DS after a review of monetary transactions
indicated suspicious types of refunds processed by a consular cashier at an embassy
overseas. A search warrant was conducted on January 24, 2010, and records and
approximately $14,000 in currency were seized. On May 4, 2010, the cashier was
terminated by the embassy along with another cashier who was determined to be
complicit with the scheme. On September 2, 2010, the cashier was indicted in U.S.
District Court on 92 counts for the embezzlement scheme. At this time, total losses
in the case are estimated to be $319,285. Prosecution in this case is pending based
upon the ability to facilitate the transfer of the cashier to U.S. custody. (09-079)



OIG conducted an investigation of a Department vendor who admitted to fraudu-
lently charging the Department approximately $35,000 for items which were never
delivered. The charges in question were later reversed, so the case was declined for


              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   51
     criminal prosecution. On July 1, 2010, the Office of the Procurement Executive
     notified the vendor that he was being debarred from engaging in any contracting
     with the Federal Government for a period of 3 years. At the time the debarment was
     being considered, it was determined that the vendor had gained employment with
     a company that had been awarded a Department contract. When the information
     concerning the vendor’s previous fraudulent activity was reported to the company’s
     president, the company immediately terminated him from employment. (08-007)


     PROCUREMENT FRAUD

     OIG received information from a Special Inspector General for Afghanistan
     Reconstruction regarding an FBI complainant who reported allegations of contract
     bid-rigging, bribery, conflict of interest, and other illegal and unethical activities
     perpetrated by a Department of State personal services contractor (PSC) and the
     owner of a construction company that held a Department contract. During the
     course of the investigation, an additional Department contractor was implicated in
     allegations of illegal and unethical activities. As a result of the investigation, on May
     11, 2010, the PSC had his contract terminated by the Department. On August 27,
     2010, procurement suspension letters were finalized and forwarded to the PSC and to
     the owners of two construction companies with Department contracts. Additionally,
     the Office of the Procurement Executive added the PSC and the construction
     companies to the Excluded Parties List. The investigation is ongoing. (09-117)


     FALSE CLAIMS

     OIG conducted an investigation of a Department employee who applied for separate
     maintenance allowance (SMA) payments while serving overseas despite the fact that
     he was legally separated from his spouse. The amount of the SMA payments was
     determined to have been $15,215. A copy of the employee’s divorce decree obtained
     by OIG showed that the employee and his spouse were legally separated when the
     application for SMA payments was filed. The Department of Justice declined to
     criminally prosecute the employee for submitting false statements. The employee
     retired while the investigation was ongoing. On April 29, 2010, the Bureau of
     Resource Management (RM) sent the retired employee a letter notifying him that he
     was liable for the full amount of the SMA payments he received. (07-011)



     OIG conducted an investigation based upon information uncovered during an OIG
     inspection indicating that a senior embassy official engaged in travel irregularities
     by submitting improper claims for travel reimbursement. When interviewed by OIG
     agents, the senior official admitted that some of the travel charges were improper.


52                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
On June 3, 2010, RM determined that the official was liable for $9,419 in improper
travel charges. The Bureau of Human Resources (HR) is currently evaluating this
case for possible disciplinary action. (08-011)


EMPLOYEE MISCONDUCT
OIG conducted an investigation based upon information received from a Member of
Congress stating he had been contacted by a constituent who alleged a Department
employee threatened him via telephone and from a Department email account (request-
ing to meet with the constituent). The investigation determined that the employee left
a threatening message on the constituent’s voicemail and sent the constituent and email
stating that a female friend asked him to contact the constituent regarding money alleg-
edly owed to her from the constituent’s company. On May 7, 2010, the employee was
terminated from employment with the Department. (10-042)



OIG conducted an investigation of a Foreign Service tandem couple who violated
regulations by shipping 7,200 pounds of hardwood from a foreign country as part
of their household effects shipment. The Department of Agriculture intercepted the
shipment, which was subsequently forfeited after a civil proceeding. The Department
of Justice declined to prosecute the employees for illegal importation of the wood,
and on July 20, 2010, HR proposed a 5-day suspension for each of them. (07-028)



OIG conducted an investigation of a Department employee who was in charge of
issuing parking permits for Department-operated parking facilities after allegations
were received that the employee was selling the permits to others for approximately
$125 each. When interviewed by OIG, the employee admitted to selling the passes.
The case was declined for criminal prosecution, and on July 2, 2010, the employee
was terminated from employment with the Department. (09-115)



OIG conducted an investigation of a Department employee who was improperly
accessing The Passport Information Electronic Records System (PIERS) to view the
records of prominent athletes and entertainers. The investigation determined that
the employee conducted 17 searches, 22 previews of cropped images, and 12 passport
records views of celebrities, athletes, and a family member using the PIERS database.
The employee admitted to accessing the above described files without authorization
or legitimate purpose. On August 11, 2010, HR proposed a 14-day suspension of the
employee. It should be noted that this employee’s improper PIERS accesses occurred



              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   53
     after the initial PIERS inquiry began in 2008 and notice had been sent to all
     Department employees with PIERS access regarding the consequences of improper
     use of the PIERS system. (09-100)


     PASSPORT FRAUD

     OIG received a request for investigative assistance from the Inspector General’s
     Office for the State of South Carolina in the matter of an escaped convict who had
     obtained a fraudulent passport in a different identity and was residing in the state of
     New York. OIG’s investigation confirmed that the escapee had fraudulently obtained
     a passport by lying about his identity. On March 31, 2010, the subject surrendered
     himself to OIG agents and was arrested. On May 11, 2010, the fugitive was indicted
     for providing a False Statement in Application and Use of a Passport. Prosecution of
     the subject is currently pending. (10-034)




     FOLLOW-UP ACTIONS

     EMBEZZLEMENT

     OIG conducted an investigation of a supervisor and a subordinate employee of the
     International Boundary and Water Commission (IBWC), United States Section,
     who embezzled over $100,000 from the Falcon Dam facility. The subjects used a
     government credit card to purchase a large number of items for personal use and used
     Falcon Dam employee’s time for work on the supervisor’s personal property. The
     supervisor immediately submitted his retirement paperwork when he learned of the
     investigation and the subordinate agreed to cooperate with OIG in the investigation.
     OIG agents conducted a search warrant on a ranch property owned by the supervi-
     sor and obtained photographic evidence of material purchased by the supervisor and
     installed on the property and other improvements made to the property using IBWC
     equipment and employees. On December 1, 2009, both subjects were indicted in
     U.S. District Court. They were arrested the next day and the subordinate was subse-
     quently proposed for termination from his employment by IBWC. On June 7, 2010,
     both subjects agreed to plead guilty. Sentencing of the subjects is currently scheduled
     for December 9, 2010. (See OIG’s Semiannual Report to the Congress, October 1,
     2009, to March 31, 2010, pp 67) (09-104 & 09-114)




54                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
VISA FRAUD

OIG conducted a joint investigation with the Department of Labor OIG concerning
two resident aliens who, while acting as immigration representatives, filed about 140
fraudulent permanent labor certification applications for West African immigrants.
Through the assistance of a cooperating witness, the investigation determined that
the subjects exaggerated or provided false information on the labor certification
regarding clients’ job qualifications, the ability of the employer to pay stated salary
and the availability of the position by the employer in order to qualify the immi-
grants for labor certifications. The subjects charged the immigrants approximately
$2500-$5000 apiece for preparing the fraudulent paperwork. The investigation
further determined that one of the American employers listed on the fraudulent
paperwork was paid by the subjects in order to allow his business name to be used as
part of the scam.

On May 20, 2009, one of the subjects pleaded guilty in the U.S. District Court,
District of Maryland, to one count of Visa Fraud and agreed to testify against the
other subject. On August 3, 2010, the other subject pleaded guilty to one count of
Visa Fraud one count of False Statements. On September 10, 2010, the second subject
was sentenced to 16 months imprisonment. The first subject and the American
employer were each sentenced to 24 months probation. (See OIG’s Semiannual Report
to the Congress, April 1, 2009, to September 30, 2009, pp 64) (08-018)


FALSE CLAIMS

OIG conducted an investigation of a subcontractor to a Bureau of Educational
and Cultural Affairs grantee that received $835,670 to conduct a project entitled
“Youth Exchange and Study Program” for the 2008-2009 academic school year.
An employee of the subcontractor was assigned to serve as the local coordinator for
the students enrolled in the program and was responsible for finding host homes
for the students in Scranton, PA. The employee accepted money from the grant
and failed to provide the students with basic provisions as outlined in the grant. On
February 12, 2010, the subcontractor employee pleaded guilty to one felony count
of Mail Fraud and on May 27, 2010, she was sentenced in the U.S. District Court,
Middle District of Pennsylvania, to 3 years supervised probation and 100 hours of
community service, and ordered to pay restitution in the amount of $2,900. (See
OIG Semiannual Report to the Congress, October 1, 2009 to March 31, 2010, pp 68)
(09-107)




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   55
     PASSPORT INFORMATION ELECTRONIC RECORDS SYSTEM
     (PIERS) INQUIRY

     On March 20, 2008, Undersecretary of State for Management Patrick F. Kennedy
     requested that OIG conduct an investigation after news media reports indicated that
     the passport files of three presidential candidates had been improperly accessed by
     three different Department contract employees on three different occasions through
     PIERS. OIG subsequently received additional information that improper accessing
     of PIERS records was widespread, and involved many Department employees and
     contractors. The following are actions that have resulted to date from OIG investiga-
     tions involving this issue during this semiannual reporting period, which include two
     separate criminal prosecutions:

     OIG conducted an investigation of a Department employee who was improperly
     accessing PIERS to view the records of prominent athletes and entertainers. The
     investigation determined that the contract employee electronically accessed through
     PIERS 99 different passport applications without authorization. On September 27,
     2009, the employee pleaded guilty in U.S. District Court for the District of South
     Carolina to one count of Unauthorized Computer Access. On April 7, 2010, the
     subject was sentenced to 12 months probation. (09-010)

     OIG conducted an investigation of a Department employee who was improperly
     accessing PIERS to view the records of prominent athletes and entertainers. The
     investigation determined that the contract employee electronically accessed through
     PIERS 150 different passport applications without authorization. On August
     25, 2010, the subject was indicted on four Felony counts: one count “Exceeding
     Authorized Computer Access”; one count “Obstruction of Agency Proceeding”;
     and two counts of “False Statements” (made to our agents). Prosecution is pending.
     (08-078)

     OIG’s pursuit of PIERS related investigations is ongoing. Because of the systemic
     weaknesses identified by OIG during the overall PIERS inquiry, the Department
     has enacted greater safeguards to protect the privacy of electronically stored passport-
     related information. (See OIG’s Semiannual Report to the Congress, October 1, 2009
     to March 31, 2010, pp 70-71)




56                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
HOTLINE
�

Referral To Other Offices for Action                            349
Held for Action Within OIG                                        87
No Action Necessary                                             270
Total Complaints Received                                      706*
*These statistics represent both the Department and the BBG.



Types of Cases*




* May not equal to 100% due to rounding




                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   57
58   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 1: DEPARTMENT OF
STATE INVESTIGATIVE ACTIVITIES
   Preliminary Inquiries
    Opened                                                                                             25

    Closed                                                                                             27
	


   Investigations
    Opened                                                                                              43
    Closed                                                                                              56
    Pending (9/30/10)                                                                                  138


   Criminal Actions
    Referrals for Prosecution                                                                            8
    Indictments/Informations                                                                            10
    Convictions                                                                                          3
    Sentencings (Months Imprisonment)                                                                   16
    Sentencings (Months Probation)                                                                      96
    Declinations                                                                                        16


   Civil Actions
    Civil Referrals                                                                                      0

    Civil Judgments                                                                                      0
	


   Administrative Referrals
    Referrals for Personnel Action                                                                       3

    Suitability Referrals to DS                                                                          2
	


   Administrative Actions
    Removals                                                                                            12
    Suspensions                                                                                          6
    Reprimands/Admonishments                                                                            25
    Debarment Actions                                                                                    1


   Monetary Recoveries
    Criminal Fines/Recoveries                                                              $2,900.00
    Civil Recoveries                                                                              $0
    Administrative Recoveries                                                            $286,420.19
    Total Investigative Recoveries                                                       $289,320.19


       Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010           59
60   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 2: REPORTS ISSUED 


     Report Number              Report Title

     AUD/CG-10-16	�             Independent Accountants’ Report on the Application of Agreed-Upon Procedures on
                                Financial Capability of AFS–USA, Inc.
     AUD/CG-10-21∗	             Independent Accountants’ Report on Audit of International Boundary and Water
                                Commission: Contract Award and Management of Funds Provided by the American
                                Recovery and Reinvestment Act
     AUD/CG-10-22∗	             Independent Accountants’ Report on Audit of Department of State Compliance
                                With Transparency and Reporting Requirements of the American Recovery and
                                Reinvestment Act
     AUD/CG-10-25	�             Embassy Baghdad Internal Controls for Overtime Pay
     AUD/FM-10-05**	�           Independent Auditor’s Report on the International Boundary and Water Commission,
                                United States and Mexico, U.S. Section, 2009 and 2008 Financial Statements
     AUD/FM-10-20 **	�          Management Letter Related to the Audit of the International Boundary and Water
                                Commission, United States and Mexico, U.S. Section, 2009 and 2008 Financial
                                Statements
     AUD/FM-10-26               Audit of Department of State Corrective Action Plan for Personal Property
     AUD/FM-10-27               Audit of Department of State Corrective Action Plans for Financial Reporting
     AUD/FM-10-28               Audit of Department of State Corrective Action Plan for Real Property
     AUD/FM-10-30               Audit of Maintenance and Improvements of Overseas Real Property
     AUD/SI-10-23               Audit of Allegations Pertaining to Contract With DynCorp International for the
                                Security Sector Transformation Project in South Sudan, Africa
     AUD/SI-10-31               Audit of Department of State Purchase Card Domestic Use
     ISP-C-10-52                Compliance Follow-up Review of Embassy Banjul, The Gambia
     ISP-I-10-41                Inspection of Humanitarian Mine Action Programs in Iraq
     ISP-I-10-43                Inspection of Bureau of Administration, Operations of Office of Emergency
                                Management
     ISP-I-10-44                Review of Support for Employees Who Are Serving or Have Served in High Stress, High
                                Threat, Unaccompanied Posts
     ISP-I-10-50A               Inspection of Embassy Djibouti, Republic of Djibouti
     ISP-I-10-51A               Inspection of Embassy Addis Ababa, Ethiopia
     ISP-I-10-55A               Inspection of Embassy Ankara, Turkey
     ISP-I-10-56A               Inspection of Embassy Nicosia, Cyprus
     ISP-I-10-57A               Inspection of Embassy Mbabane, Swaziland

*
     Mandated by the American Recovery and Reinvestment Act of 2009 (P.L. 111-5).
**
     Mandated by the Chief Financial Officers Act of 1990 (P.L. 101-576, as amended).

                     Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010    61
     Report Number	�             Report Title

     ISP-I-10-58A	�              Inspection of Embassy Maseru, Lesotho
     ISP-I-10-59A	�              Inspection of Embassy Rome, Italy, Its Constituent Posts, and the Republic of San Marino
     ISP-I-10-60A	�              Inspection of Embassy Lilongwe, Malawi
     ISP-I-10-61A	�              Inspection of Embassy Harare, Zimbabwe
     ISP-I-10-62A	�              Inspection of Embassy Abu Dhabi and Consulate General Dubai, United Arab Emirates
     ISP-I-10-63A	�              Inspection of Embassy Sanaa, Yemen
     ISP-I-10-64A	�              Inspection of Embassy Islamabad and Constituent Posts, Pakistan

     ISP-I-10-65	�               Inspection of U.S. Mission to the African Union
     ISP-I-10-67	�               Inspection of the Bureau of Administration’s Office of Global Information Services,
                                 Office of Directives Management
     ISP-I-10-68	�               Implementation of a Process to Assess and Improve Leadership and Management of
                                 Department of State Posts and Bureaus
     ISP-I-10-71A	�              Inspection of Embassy Muscat, Oman
     ISP-I-10-72	�               Review of the Department of State Interagency Coordination and Public
                                 Communication Regarding U.S. Citizen Victims in the Earthquake-Destroyed Hotel
                                 Montana in Haiti
     ISP-I-10-73	�               Inspection of Standards, Training, and Funding for Consular Country Coordinators
     ISP-I-10-74A	�              Inspection of Embassy Kuala Lumpur, Malaysia
     ISP-I-10-75A	�              Inspection of Embassy Vientiane, Laos
     ISP-I-10-76	�               Inspection of the Bureau of Near Eastern Affairs, Office of Middle Eastern Partnership
                                 Initiative
     ISP-I-10-77	�               Review of Department of State Activities Concerning Draft Kenya Constitution
     ISP-I-10-78A	�              Inspection of Consulate General Hong Kong, China
     ISP-I-10-79A	�              Inspection of Embassy Beijing, China, and Constituent Posts
     ISP-I-10-82A	�              Inspection of Embassy Dhaka, Bangladesh
     MERO-A-10-07	�              Audit of Property Accountability at Embassy Baghdad
     MERO-A-10-11	�              The Bureau of Diplomatic Security Kabul Embassy Security Force, Performance
                                 Evaluation
     MERO-A-10-12	�              Evaluation of the Logistics Civil Augmentation Program at Embassy Baghdad
     MERO-I-10-08	�              The Second Worldwide Personal Protective Services Contract: Management by the
                                 Bureau of Diplomatic Security and Contractor Performance Capping Report
     MERO-I-10-10	�              Limited-Scope Review of Policies and Procedures for Vetting Foreign Service Nationals
                                 at Embassy Kabul in Afghanistan
     MERO-I-10-14	�              Limited-Scope Review of Bureau of Diplomatic Security’s Oversight of Explosive
                                 Detection Canine Programs




62                    Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
CLASSIFIED REPORTS ISSUED

The following reports are summarized in the classified annex.

Report Number                Report Title

 AUD/IT-10-29	�              FY 2010 Review of the Information Security Program for Sensitive Compartmented
                             Information Systems at the Department of State

 ISP-S-10-50A	�              Classified Annex to the Inspection of Embassy Djibouti, Republic of Djibouti

 ISP-S-10-51A                Classified Annex to the Inspection of Embassy Addis Ababa, Ethiopia

 ISP-S-10-55A                Classified Annex to the Inspection of Embassy Ankara, Turkey

 ISP-S-10-56A                Classified Annex to the Inspection of Embassy Nicosia, Cyprus

 ISP-S-10-57A                Classified Annex to the Inspection of Embassy Mbabane, Swaziland

 ISP-S-10-58A                Classified Annex to the Inspection of Embassy Maseru, Lesotho

 ISP-S-10-59A                Classified Annex to the Inspection of Embassy Rome, Italy, Its Constituent Posts,
                             and the Republic of San Marino

 ISP-S-10-60A                Classified Annex to the Inspection of Embassy Lilongwe, Malawi

 ISP-S-10-61A                Classified Annex to the Inspection of Embassy Harare, Zimbabwe

 ISP-S-10-62A	�              Classified Annex to the Inspection of Embassy Abu Dhabi and Consulate General
                             Dubai, United Arab Emirates

 ISP-S-10-63A                Classified Annex to the Inspection of Embassy Sanaa, Yemen

 ISP-S-10-64A                Classified Annex to the Inspection of Embassy Islamabad and Constituent Posts,
                             Pakistan

 ISP-S-10-71A                Classified Annex to the Inspection of Embassy Muscat, Oman

 ISP-S-10-74A                Classified Annex to the Inspection of Embassy Kuala Lumpur, Malaysia

 ISP-S-10-75A                Classified Annex to the Inspection of Embassy Vientiane, Laos

 ISP-S-10-78A                Classified Annex to the Inspection of Consulate General Hong Kong, China

 ISP-S-10-79A                Classified Annex to the Inspection of Embassy Beijing, China, and Constituent Posts

 ISP-S-10-82A                Classified Annex to the Inspection of Embassy Dhaka, Bangladesh




                  Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010    63
64   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

Table 1: Inspector General Issued Reports With Questioned Costs
�

                                                                                         Questioned               Unsupported
                                                                    Number of              Costs                     Costs
 Type of Report
                                                                     Reports             (Dollars in               (Dollars in
                                                                                         Thousands)               Thousands)

A. For which no management decision has been made                         9                $162,484                  $64,740
   by the commencement of the reporting period


B.   Which were issued during the reporting period:
       Audits                                                             1                 $10,200                  $10,200
       Audit of Allegations Pertaining to Contract with
       DynCorp International for the Security Sector
       Transformation Project In South Sudan, Africa
       (AUD/SI-10-23)
       Evaluations                                                        1                   $6,447                     $0
       Performance Evaluation of Bureau of Diplomatic
       Security Kabul Embassy Security Force
       (MERO-A-10-11)

     Total issued during this reporting period                            2                 $16,647                 $10,200

     Subtotals (A + B)                                                    11               $179,131                 $74,940

C. For which a management decision was
   made during the reporting period
       (i) dollar value of disallowed costs                               2                     $250                     $0
       (ii) dollar value of costs not disallowed                          2                  $11,565                   $326


D. For which no management decision has been made                         10                $167,317                 $74,614
   by the end of the reporting period
     Reports for which no management decision was                         8                $150,670                  $64,414
     made within 6 months of issuance




                  Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010                  65
     Table 2: Inspector General Issued Reports With
     Recommendations That Funds Be Put To Better Use

     Type of Report                                                                      Number of                 Dollar Value
                                                                                          Reports                (in Thousands)

     A.	� For which no management decision has been made by the                                  0                        $0
          commencement of the reporting period*


     B.	� Which were issued during the reporting period:

            Audits	�                                                                             1                     $1,679
            Audit of Property Accountability at Embassy Baghdad
            (MERO-A-10-07)

          Total issued during this reporting period	�                                            1                     $1,679

          Subtotals (A + B)	�                                                                    1                     $1,679

     C.	� For which a management decision was made during the
          reporting period
            (i) dollar value of recommendations that were agreed to by                           0                        $0
            management
                – based on proposed management action
                – based on proposed legislative action
            (ii) dollar value of recommendations that were not agreed to                         0                        $0
            by management

     D.	� For which no management decision has been made by the end                              1                     $1,679
          of the reporting period
          Reports for which no management decision was made within                               0                        $0
          6 months of issuance


      *
       Final amounts in the previous Semiannual Report to the Congress were adjusted based on updated
      information and an analysis of open recommendations.




66                     Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

SIGNIFICANT AUDIT RECOMMENDATIONS PENDING
FINAL ACTION

Report                 Rec.      Report Title                                                                  First
Number                 No.       Recommendation Summary                                                        Reported

AUD/CG-06-02                     Application of Agreed-Upon Procedures to George Mason University                   2/06
                                 Awards

                            4 OIG recommended the Bureau of Educational and Cultural
                              Affairs grants officer:
                                 Ensure George Mason University follows through with proposed
                                 guidelines related to cost share;
                                 Require the University to provide supporting documentation
                                 for claimed cost share amounts totaling $354,248 for Grants
                                 ASMA-0324 and S-ECAAS-02-GR-251; and
                                 Reduce the grants accordingly, and require the University to
                                 reimburse applicable unmet cost share amounts.

AUD/IQO-07-20                    Review of DynCorp International, LLC, Contract Number                              1/07
                                 S-LMAQM-04-C-0030, Task Order 0338, for the Iraqi Police
                                 Training Program Support (Joint audit with the Special Inspector
                                 General for Iraq Reconstruction)

                            2 OIG recommended the Office of Acquisitions Management seek
                              reimbursement from DynCorp for the improperly authorized
                              payment of $4.2 million that represents contractually unauthor-
                              ized work directed by the Iraqi Ministry of Interior. This work
                              included the relocation of the residential camp, the manufacture
                              of additional VIP trailers, and the construction of an Olympic-
                              size swimming pool.

AUD/IQO-07-48                    Accounting for Government-Owned Personal Property Held by                          9/07
                                 Selected Contractors in Afghanistan

                            1 OIG recommended the Department develop and implement
                              policies and procedures to achieve compliance with Federal
                              Acquisition Regulation requirements for reviewing a contractor’s
                              property control system.




               Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010               67
     Report                 Rec.      Report Title                                                                  First
     Number                 No.       Recommendation Summary                                                        Reported

                                 2 OIG recommended the Department take actions to address
                                   the $2.9 million in unallowable costs identified in this report,
                                   including:
                                      Reconciling contract requirements to the property acquired and
                                      invoiced by the contractors for which they were reimbursed and
                                      determine whether property in excess of amounts specified in
                                      the contract or task order was required to accomplish contract
                                      objectives.
                                      Documenting the reconciliation and determination, use them as
                                      the basis for approving the costs of any excess property deemed
                                      allowable, and issue a modification to the task order indicating
                                      the approval.
                                      Resolving any unallowable costs associated with property that
                                      was determined to be unnecessary to the accomplishment of
                                      contract objectives.

                                 3 OIG recommended the Department take the following steps to
                                   address the $25.5 million in unsupported costs indentified in
                                   this report:
                                      Reconcile the property acquired and invoiced by the contractors
                                      for which they were reimbursed to the contractor’s property lists
                                      by obtaining and reviewing contractor documentation detailing
                                      the types and quantities of property acquired.
                                      Determine whether the property was needed and consistent with
                                      contract requirements.
                                      Resolve any unsupported allowable costs associated with prop-
                                      erty that could not be supported with adequate documentation
                                      or was determined to be unnecessary to the accomplishment of
                                      contract objectives.

                                 5 OIG recommended the Department evaluate its current
                                   structure for monitoring government property held by contrac-
                                   tors, assess the benefits of creating a property administrator
                                   function, and use this evaluation to clearly define the authority
                                   and responsibility for property oversight for each member of its
                                   contract administration team.

     AUD/SI-07-27                     Audit of Emergency Preparedness at the Washington Metropolitan                     3/07
                                      Facilities of the Department of State

                                 2 OIG recommended the Bureau of Administration ensure the
                                   Office of Emergency Management’s Planning and Preparedness
                                   Division has sufficient staffing to finalize 6 FAM 400, Office of
                                   Emergency Management Program, and the proposed 6 FAH-1
                                   H-100, Domestic Emergency Handbook, and ensure the emer-
                                   gency preparedness policies and procedures contained in these
                                   manuals are implemented and enforced in a timely manner.




68                  Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Report                 Rec.      Report Title                                                                  First
Number                 No.       Recommendation Summary                                                        Reported

AUD/CG-07-37                     Independent Accountants’ Report on the Application of Agreed-                      9/07
                                 Upon Procedures on Costs Claimed by Meridian International
                                 Center Under Department of State Cooperative Agreements

                            1 OIG recommended the Bureau of Educational and Cultural
                              Affairs:
                                 Determine whether the Center’s use of the forgone opportunity
                                 costs concerning the Center’s conference facilities constitutes an
                                 appropriate cost-share amount under the cooperative agreement.
                                 Following this determination, as appropriate, require the Center
                                 to provide supporting documentation for the claimed cost-share
                                 amounts or an alternative cost-sharing proposal.

AUD/CG-08-02                     Independent Accountants’ Report on the Application of Agreed-Upon                  1/08
                                 Procedures on Costs Claimed by Young Men’s Christian Association
                                 of Greater New York Under Department of State Grants

                            4 OIG recommended the Bureau of Educational and Cultural
                              Affairs require the Association to substantiate the unsupported
                              payroll costs or reimburse the Department for these costs.

AUD/CG-08-32                     Independent Accountants’ Report on the Application of Agreed-                      8/08
                                 Upon Procedures on Indirect Cost Rates Proposed by Nacel Open
                                 Door, Inc.

                            3 OIG recommends that the Department’s Bureau of Educational
                              and Cultural Affairs require Nacel Open Door, Inc., to (a)
                              establish appropriate policies and procedures to ensure that costs
                              under the grants are adequately documented and accounted for
                              in accordance with the applicable Office of Management and
                              Budget circulars and (b) provide information so that ECA can
                              make an appropriate determination on the unsupported costs of
                              $94,524.

AUD/IQO-09-25                    Audit of the Design and Construction of the New Embassy                           10/09
                                 Compound in Baghdad, Iraq

                            1 OIG recommends that the Contracting Officer, Bureau of
                              Administration, Office of Logistics Management, attempt
                              to recover $4.6 million from First Kuwaiti Trading and
                              Contracting for the infrastructure contract to make the
                              necessary corrections to the safe areas in the New Embassy
                              Compound.




               Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010               69
     Report           Rec.      Report Title                                                                  First
     Number           No.       Recommendation Summary                                                        Reported

                           2 OIG recommends that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover $14 million for the housing, infrastructure, support
                             facilities and the chancery contracts from First Kuwaiti Trading
                             and Contracting to perform the necessary design and retrofit of
                             seismic bracing in the New Embassy Compound.

                           4 OIG recommends that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover $1.7 million for contracts from First Kuwaiti Trading
                             and Contracting for the housing, infrastructure, support facili-
                             ties, and the chancery contracts so that the necessary repairs to
                             the exterior walls and walkway and road surfaces can be made.

                           6 OIG recommends that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover approximately $500,000 from First Kuwaiti Trading
                             and Contracting for the infrastructure contract to increase the
                             penthouse size and air flow through the louvers of the Utility
                             Building.

                           7 OIG recommends that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover approximately $11 million from First Kuwaiti Trading
                             and Contracting for the infrastructure contract to compensate
                             the Department of State for additional operating costs that will
                             be incurred because the configuration of the Utility Building/
                             Generator Plant was changed from the 10 2-megawatt configu-
                             ration to 18 1-megawatt generators.

                           8 OIG recommends that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover between $4.2 million and $4.4 million from First
                             Kuwaiti Trading and Contracting for the infrastructure contract
                             to correct all deficiencies to the electrical wiring, control, and
                             distribution systems at the New Embassy Compound.

                           9 OIG recommends that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover an estimated $500,000 from First Kuwaiti Trading and
                             Contracting for the infrastructure contract so that the necessary
                             functions can be added to the building automation system at the
                             New Embassy Compound.




70            Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Report                 Rec.      Report Title                                                                  First
Number                 No.       Recommendation Summary                                                        Reported

                           10 OIG recommends that the Contracting Officer, Bureau of
                              Administration, Office of Logistics Management, attempt
                              to recover $4.6 million from First Kuwaiti Trading and
                              Contracting to correct fire system deficiencies for the staff diplo-
                              matic apartments ($3.5 million for the housing contract) and
                              repair the water main distribution system joints ($1.1 million for
                              the infrastructure contract).

                           11 OIG recommends that the Contracting Officer, Bureau of
                              Administration, Office of Logistics Management, attempt to
                              recover approximately $1.5 million from First Kuwaiti Trading
                              and Contracting for the infrastructure and housing contracts to
                              correct deficiencies in the plumbing traps at the New Embassy
                              Compound.

                           12 OIG recommends that the Contracting Officer, Bureau of
                              Administration, Office of Logistics Management, attempt to
                              recover approximately $33 million that was paid to First Kuwaiti
                              Trading and Contracting to perform and document the required
                              design work for the NEC Baghdad contracts.

                           14 OIG recommends that the Contracting Officer, Bureau of
                              Administration, Office of Logistics Management, attempt to
                              recover approximately $3.8 million for the housing, infrastruc-
                              ture, site facilities, and chancery contracts that First Kuwaiti
                              Trading and Contracting did not perform or that it performed
                              incorrectly related to commissioning activities.

AUD/SI-10-23                     Audit of Allegations Pertaining to Contract With DynCorp                          08/10
                                 International for the Security Sector Transformation Project in
                                 South Sudan, Africa

                            3 OIG recommends that the Bureau of Administration, Office of
                              Acquisitions Management, in coordination with the Bureau of
                              African Affairs, offer DynCorp International additional reim-
                              bursement of $2.6 million.




               Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010               71
     SIGNIFICANT INSPECTIONS RECOMMENDATIONS
     PENDING FINAL ACTION

     Report                Rec. Report Title                                                                       First
     Number                No. Recommendation Summary                                                              Reported

     ISP/I-10-16                    Management Review of Youth Programs, Bureau of Educational and                     10/09
                                    Cultural Affairs

                               1 OIG recommended the Bureau of Educational and Cultural Affairs
                                 reconfigure and augment the Youth Division with personnel and
                                 budget to allow program officers and teams to focus on single
                                 programs and to do periodic unannounced site visits.

                               4 OIG recommended the Bureau of Educational and Cultural
                                 Affairs establish a standard requirement based on objective crite-
                                 ria to conduct national criminal history checks of host families
                                 to ensure uniformity and adequacy of information provided by
                                 third-party background check companies.

     ISP/I-09-43                    Management Review of the Office of Historian, Bureau of Public                     05/09
                                    Affairs

                              11 OIG recommended the Bureau of Public Affairs should reaffirm
                                 in writing to the Historical Advisory Committee the primacy of
                                 the Foreign Relations of the United States series in the Office of
                                 Historian’s priorities.

                              13 OIG recommended the Bureau of Public Affairs should establish
                                 and implement written guidance to the deputy assistant secretary
                                 and the director of the Office of the Historian that establishes
                                 lines of authority; frequent, periodic reviews; attendance of each
                                 at staff meetings held by the other; and other approaches to
                                 encourage a clear chain of command with direct communication
                                 between the two offices.

                              19 OIG recommended the Bureau of Human Resources, in coor-
                                 dination with the Bureau of Public Affairs, should increase the
                                 number of direct-hire working as historians in the Office of the
                                 Historian by an amount that will help the office to meet its obli-
                                 gations with respect to the publication of the Foreign Relations of
                                 the United States.

                              22 OIG recommended the Bureau of Public Affairs should design
                                 and implement an orientation program in the Office of the
                                 Historian for new employees and contractors covering such topics
                                 as Civil Service hiring procedures, rules, and regulations; and
                                 Department functions and activities.

     ISP/I-09-34                    Inspection of the Bureau of Consular Affairs, Passport Services                    07/09

                              18 OIG recommended the Bureau of Consular Affairs close any
                                 acceptance facility where the acceptance agent also issues birth
                                 certificates as soon as a viable alternative location for submitting
                                 passports is identified.


72                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Report                Rec. Report Title                                                                       First
Number                No. Recommendation Summary                                                              Reported

                         20 OIG recommended the Bureau of Consular Affairs redraw the
                            districts for acceptance facility oversight, include all process-
                            ing centers and new agencies in the program, make the districts
                            proportionate, and assign sufficient staff to fulfill customer
                            service duties.

                         22 OIG recommended the Bureau of Consular Affairs certify all
                            acceptance agents by assigning each agent individual identifica-
                            tion numbers and require all acceptance facilities to recertify
                            annually the names of the individuals trained and authorized to
                            accept passport applications.

                         24 OIG recommended the Bureau of Consular Affairs create
                            and maintain an integrated master database with the Travel
                            Document Information System on all authorized acceptance
                            facilities and agents.

                         27 OIG recommended the Bureau of Consular Affairs standard-
                            ize the guidance for conducting adjudication audits, conduct
                            a comprehensive error rate study, and create an action plan to
                            reduce the overall error rate.

                         45 OIG recommended the Bureau of Consular Affairs develop a
                            passport fraud tracking system and order its deployment before
                            the end of FY 2009.

ISP/I-09-16                    The Executive Office, Bureau of Diplomatic Security                                04/09

                          9 OIG recommended the Bureau of Diplomatic Security, in coordi-
                            nation with the Bureau of Administration, abolish the Logistics
                            Services Division, Space Management Branch, and should
                            transfer the function and the full-time-equivalent positions to the
                            Bureau of Administration, Office of Real Property Management.

                         13 OIG recommended the Bureau of Diplomatic Security, in coordi-
                            nation with the Bureau of Administration, review and amend all
                            contract documentation to include a full and complete descrip-
                            tion of services and tasks to be performed for the Office of the
                            Chief Technology Officer and should institute benchmarks for
                            evaluating contractor performance.

                         24 The Bureau of Diplomatic Security, in coordination with the
                            Bureau of Administration should eliminate Diplomatic Security-
                            developed program asset systems and convert their asset data to
                            the Integrated Logistics Management System.

ISP/I-07-16                    Inspection of the Bureau of Human Resources (Phase I)                              05/07

                         33 OIG recommended the Bureau of Human Resources should, in
                            coordination with the Bureau of Resource Management, establish
                            a global savings mechanism to supplement the locally employed
                            staff’s retirement plan.



              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010               73
     REVISED MANAGEMENT DECISIONS

     None.


     MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
     RECOMMENDATIONS


     Review of Support for Employees Who Are Serving or Have Served in
     High Stress, High Threat, Unaccompanied Posts (ISP-I-10-44)
     OIG recommended the Department issue a high-level message encouraging employ-
     ees to seek consultations with mental health professionals; assign more returnees to
     the High Stress Briefing in Washington before they proceed to their onward assign-
     ment; task leadership at overseas posts and the Department with responsibility for
     facilitating the adjustments of returnees; continue expanding counseling services to
     returning employees and schedule a 2011 survey of employees and health provid-
     ers; and establish recognition programs to thank employees for serving in dangerous
     and stressful assignments. The Secretary issued an email on September 7, 2010, to
     all employees thanking them for their hard work and commitment to excellence in
     serving their country and noting that their service comes “with sacrifice and unique
     stress.” The Secretary’s message stated that the Department had made it a priority to
     provide access to social workers and mental health counselors, mandatory high-stress
     outbrief programs and training for anyone who seeks it that included training for
     those returning from or working with returnees from high-stress posts. The message
     also informed employees that seeking mental health counseling or treatment is not a
     threat to their security clearances, and the DS advised that receiving recommended
     treatment for mental health concerns is a favorable factor in security clearance
     determinations.


     Review of the Department of State Plan to Provide Qualified
     Contracting Officers and Contracting Officer Representatives for
     Oversight of American Recovery and Reinvestment Act (ARRA)
     Projects (ISP-I-10-26)
     In its review, OIG had found that some contracting officers overseeing ARRA-
     funded contract had not met OMB’s continuing education requirements. In response,
     the Department conducted eight training sessions on the Acquisition Career
     Management Information System, the official system to track contracting officer
     compliance with OMB’s continuing education requirements.




74                Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Report of Inspection of Embassy Canberra and Consulates General
Sydney, Melbourne and Perth, Australia (ISP-I-10-07A)
OIG recommended the elimination of a FS-04 consular/political position in the
consular section at Embassy Canberra. The Department abolished the political/
consular position and established an entry level political officer position, allowing
Machine Readable Visa funds in the amount of $500,000 to be redirected to meet
worldwide consular staffing priorities.


Inspection of the Bureau of Administration’s Offices of Real Property
Management and Facility Management Services (ISP-I-10-05)
OIG found that the Office of Facility Management Services paid monthly fees for
184 cellular phones and Blackberry devices, despite the fact that inventory records
showed only 75 devices issued and the office had only had 62 authorized positions.
As a result of OIG’s recommendation, the bureau updated its policy and discon-
nected 96 unused devices, resulting in annual savings of about $41,000.


Inspection of Embassy Zagreb, Croatia (ISP-I-09-54A)
OIG recommended the Department eliminate two political officer positions due to
the decreased need for staff in Croatia to oversee assistance programs such as Support
for East European Democracy. In response to OIG’s recommendation, the embassy
reported that it will eliminate one position in FY 2010 and another in FY 2011.


Inspection of Embassy Mexico City, Mexico (ISP-I-09-21A)
OIG found that modest workloads did not justify the costs of maintaining three
consular agencies along the Texas border. In response to OIG’s recommendation,
the Department permanently closed the agency in Ciudad Acuna, resulting in an-
nual savings of about $34,000 in lease, salary, and utility costs.


Review of the Department Headquarters’ Implementation of
Cellular Telephone Policies (SIA-I-07-01)
In response to OIG’s review, the Department updated its security policies for cellular
telephones and PDAs, published the policies on Department Web sites, and updated
user acknowledgment forms and security awareness briefings to reflect those secu-
rity policies. The Department is in the process of revising applicable sections of the
Foreign Affairs Manual.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   75
     SUMMARY OF AUDIT REPORTS WITHOUT MANAGEMENT
     DECISION FOR MORE THAN SIX MONTHS

     Report Number: AUD/CG-06-02
     Subject: Application of Agreed-Upon Procedures to George Mason University Awards
     Date Issued: February 24, 2006
     Reason for not being resolved: The Bureau of Educational and Cultural Affairs
     was requested to respond to Recommendations 1, 3, and 4 by April 21, 2010. On
     September 10, 2010, the Acting Division Director for ECA Grants requested that
     OIG send him any information pertaining to the recommendations so that he could
     “respond appropriately…on the status of the [recommendations].” However, OIG had
     not received a response as of the end of this reporting period. Therefore, the three
     recommendations remain unresolved.
     Projected date of resolution: March 2011

     SUMMARY OF INSPECTION REPORTS WITHOUT MANAGEMENT
     DECISION FOR MORE THAN SIX MONTHS
     Report Number: ISP/I-09-16
     Subject: Report of Inspection of the Executive Office, Bureau of Diplomatic Security
     Date Issued: April 5, 2009
     Reason for not being resolved: OIG recommended that DS abolish its space
     management division and transfer it to the Office Real Property Management in
     the Bureau of Administration. DS did not concur with the recommendation and
     proposed an alternative solution; to coordinate and develop a memorandum of
     agreement (MOA) with the A Bureau relating to space management functions. The
     Bureau of Administration reported that DS rejected its terms for an initial draft
     MOA. Action is still pending.
     Projected date of resolution: FY 2011

     Report Number: ISP/I-10-39
     Subject: Report of Inspection of the Bureau of Public Affairs
     Date Issued: February 2010
     Reason for not being resolved: OIG recommended that the Bureau of Public Affairs
     (PA) reassign the office director of the Office of Broadcast Services to a nonsupervisory
     position. PA concurred with the recommendation and initially reported that the office
     director was reassigned to a nonsupervisory position. Subsequently, OIG learned that the
     office directed was informally detailed to nonsupervisory duties. Notification from PA of
     the formal personnel action processed in response to the recommendation is pending.
     Projected date of resolution: November 2010

76                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

Report Number                 Report Title

AUD/CG-10-16	�                Independent Accountants’ Report on the Application of Agreed-Upon Procedures
                              on Financial Capability of AFS-USA, Inc.
                              L. F. Harris & Associates, CPA, P.A.
                              Attestation Engagement
AUD/FM-10-05	�                Independent Auditor’s Report on the International Boundary and Water Commission,
                              United States and Mexico, U.S. Section, 2009 and 2008 Financial Statements
                              Leonard G. Birnbaum and Company, LLP
                              Financial Audit
AUD/FM-10-20	�                Management Letter Related to the Audit of the International Boundary and
                              Water Commission, United States and Mexico, U.S. Section, 2009 and 2008
                              Financial Statements
                              Leonard G. Birnbaum and Company, LLP
                              Financial Audit
AUD/CG-10-21	�                Independent Accountants’ Report on Audit of International Boundary and
                              Water Commission: Contract Award and Management of Funds Provided by the
                              American Recovery and Reinvestment Act
                              Kearney & Company, P.C.
                              Performance Audit
AUD/CG-10-22	�                Independent Accountants’ Report on Audit of Department of State Compliance
                              With Transparency and Reporting Requirements of the American Recovery and
                              Reinvestment Act
                              Kearney & Company, P.C.
                              Performance Audit
AUD/FM-10-26	�                Audit of Department of State Corrective Action Plan for Personal Property and
                              Equipment
                              Kearney & Company, P.C.
                              Performance Audit
AUD/FM-10-27	�                Audit of Department of State Corrective Action Plans for Financial Reporting
                              Kearney & Company, P.C.
                              Performance Audit
AUD/FM-10-28	�                Audit of Department of State Corrective Action Plan for Real Property
                              Kearney & Company, P.C.
                              Performance Audit


             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010       77
78   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
BROADCASTING 

  BOARD OF 

 GOVERNORS
�
AUDITS
�

Audit of Broadcasting Board of Governors Overseas Nonexpendable
Personal Property (AUD/HCI-10-24)
In FY 2007, BBG implemented the Property Inventory Processing System (PIPS)
worldwide to address deficiencies in control over personal property that had been
identified in previous OIG reports. As of July 8, 2009, PIPS included records of
13,381 items of nonexpendable personal property, with acquisition costs of more than
$350 million. More than 8,500 (64 percent) of these items, with acquisition costs
totaling almost $245 million (70 percent), were located overseas. Of the items located
overseas, 668 (8 percent) were capitalized, with acquisition costs totaling almost
$226 million (92 percent) and a net book value after depreciation of more than $84
million.

OIG conducted this audit to determine whether BBG could properly account for its
nonexpendable personal property overseas—specifically, to verify whether capital-
ized assets included in PIPS were properly valued, personal nonexpendable property
included in PIPS existed, and PIPS data was accurate and complete.

OIG found that PIPS was not the direct source for capitalized nonexpendable prop-
erty on BBG’s financial statements because BBG continued to use a spreadsheet that
had been developed in 2005 to consolidate data from the property tracking systems
in use at that time. Also, BBG did not always properly value its capitalized property.
Specifically, some BBG personnel stated that they were not aware of requirements for
reporting the salvage value of BBG’s capitalized property. As a result, annual depreci-
ation was overstated by as much as $1 million, and net book value for property, plant,
and equipment was understated by as much as $19.7 million on BBG’s FY 2009
financial statements. These actions warrant BBG’s reviewing the impact on its finan-
cial statements for FY 2009 and prior years with its independent auditor. Further,
PIPS data on property could not be verified and was incomplete because BBG’s inter-
nal control environment did not ensure that physical inventories were conducted and
certified, that PIPS records were updated, that personnel had adequate guidance and
training, and that serial numbers or other unique identifiers were recorded in PIPS.

OIG made recommendations for BBG to improve the accuracy of annual and accu-
mulated depreciation and the net book value of capitalized property as reported on
the annual financial statements and also to improve internal controls relating to the
valuation and annual verification of all personal nonexpendable property.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   81
82   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
INSPECTIONS
�

Inspection of Voice of America’s Chinese Branch (ISP-IB-10-53)
The management of Voice of America’s (VOA) Chinese branch, which is composed
of the Mandarin and Cantonese language services, provides sound leadership to an
outstanding, dedicated staff under difficult conditions imposed by the antipathy
of Chinese authorities to VOA Chinese programming. The Chinese Government
censors VOA’s Chinese branch Web site and jams its radio frequencies. The
International Broadcasting Bureau (IBB) has taken measures to deal with such
censorship. The OIG team recommended the Chinese branch develop a long-term
strategy that includes all the key elements of an effective business plan to help it meet
the innumerable challenges of reaching the Chinese target audience and deciding on
the most effective delivery systems in a world of rapidly developing communications
technologies.

China is the leading market in the world for new media, in terms of the actual
number of new media users, and is rapidly outpacing the United States. In spite of
censorship challenges, the Internet and new media offer a new and vibrant way for
the Chinese branch to reach its target audience inside the People’s Republic of China
(PRC). Employees of the Chinese branch have enthusiastically embraced new ways to
grow audiences through the Internet and are resourceful in using new media.

The Chinese Government welcomed (or tolerated) certain VOA programs and
products, such as English language teaching, as long as they did not cross a line that
involved hard news reporting. As a way to penetrate the Chinese market, the branch
chief initiated negotiations with a major cell phone company to install VOA English
language programs into phones intended for sale in the PRC. The program went into
effect in 2008. Chinese cell phone users have the option to subscribe to the programs.
Indications showed that the program was highly successful. The OIG team consid-
ered this initiative a best practice.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   83
                     BEST PRACTICE: Programming Cell Phones with VOA
                     Chinese Language Learning Programs

                     Because of the intense active interference by the Chinese authorities in VOA
                     attempts to reach its Chinese target audience by Internet, the Chinese branch
                     seeks innovative ways to reach into China and to make a connection with a
                     Chinese audience. The VOA Chinese branch chief initiated long and difficult
                     negotiations with a cell phone company and arranged to have VOA Chinese
                     branch’s English language learning programs embedded in its cell phones and
                     give users the option to subscribe to any of the programs. As of 2008, this
                     initiative has been very successful. According to year-end statistics, there were
                     357,502 downloads of VOA Mandarin service’s English language material by
                     209,959 users of these phones. This innovation by the Chinese branch may
                     well be copied by other language services attempting to reach target audiences
                     through new media such as cell phones and personal digital assistants.




     Memorandum Report, Broadcasting Board of Governors Operations
     in Islamabad, Pakistan (ISP-IB-10-66)
     OIG conducted a limited-scope inspection of BBG operations in Islamabad,
     Pakistan, in conjunction with its inspection of Embassy Islamabad. OIG team
     discussions with BBG staff in Washington during the survey phase revealed no
     outstanding issues. Discussions with the staff at the office in Islamabad found a staff
     engaged and proud of their accomplishments: the Urdu staff is responsible for place-
     ments on Pakistani radio stations that reach an estimated 10 million listeners per
     week—in addition to the audience of the Voice of America’s Urdu service. The OIG
     team found no issues that require recommendations.


     Memorandum Report, Broadcasting Board of Governors, Beijing,
     China (ISP-IB-10-86)
     OIG conducted a limited review of VOA operations in China. The OIG team noted
     that the VOA office did have a minimum level of security in a commercial building
     and that Embassy Beijing’s regional security officer had made courtesy visits to the
     office. The OIG team also noted that the U.S. direct-hire staff was not registered
     in the warden system and discussed the merits of registering since this is a service
     accorded to all Americans in country. Listener polling continues to be difficult in
     China; therefore, VOA has no reliable statistics on its audiences. Nevertheless, the
     bureau receives an average of 20 to 30 calls a week, which substantiate the important
     role of listeners’ use of proxy servers to get around Internet blocking.




84                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
Memorandum Report, Broadcasting Board of Governors, Hong
Kong, China (ISP-IB-10-85)
OIG conducted a limited inspection of the Broadcasting Board of Governors opera-
tions in Hong Kong in conjunction with an inspection of Consulate General Hong
Kong. The VOA Mandarin Service and Radio Free Asia both have correspondents
in Hong Kong. The OIG team met with the senior correspondents of both VOA
and Radio Free Asia at the consulate general, but did not visit their offices. Neither
correspondent expressed concerns about security. The OIG team’s findings from this
limited inspection support those of OIG’s inspection of VOA’s Chinese Branch.




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   85
86   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
INVESTIGATIONS
�

OIG conducted an investigation of a contractor who demanded kickbacks from
vendors and subcontractors doing business with a news-gathering organization under
contract to the Middle East Broadcasting Network (MBN), a wholly-funded grantee
of the BBG. During the course of the investigation, OIG uncovered the fact that
the contractor had also defrauded MBN by creating a separate company to double-
bill for services already paid for under the primary contract. OIG estimates that the
contractor’s scheme may have netted him up to $20,000 per month and as much as
$250,000 in total. The investigation also identified two additional MBN contractors,
working for the same news organization, as complicit in the double-billing scheme.
On August 18, 2010, based on the results of the OIG investigation, MBN terminated
the contracts of two of the contractors and the third resigned in lieu of termination.
The investigation is ongoing. (10-089)




             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   87
88   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 1: BROADCASTING
BOARD OF GOVERNORS
INVESTIGATIVE ACTIVITIES

      Preliminary Inquiries
        Opened                                                                              0
        Closed                                                                              0
      Investigations
        Opened                                                                              0
        Closed                                                                              3
        Pending (9/23/10)                                                                   2
      Criminal Actions
        Referrals for Prosecution                                                           1
        Indictments/Informations                                                            0
        Convictions                                                                         0
        Sentencings (Months Imprisonment)                                                   0
        Sentencings (Months Probation)                                                      0
        Declinations                                                                        1
      Civil Actions
        Civil Referrals                                                                     0
        Civil Judgments                                                                     0
        Civil Declinations                                                                  0
      Administrative Referrals
        Referrals for Personnel Action                                                      1
        Suitability Referrals to DS                                                         0
      Administrative Actions
        Removals                                                                            0
        Suspensions                                                                         0
        Reprimand/Admonishments                                                             0
        Debarment Actions                                                                   0




    Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   89
       Monetary Recoveries
         Criminal Fines/Recoveries                                                         $0
         Civil Recoveries                                                                  $0
         Administrative Recoveries                                                         $0
         Total Investigative Recoveries                                                    $0




90   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 2: REPORTS ISSUED 


Report Number                    Report Title

AUD/HCI-10- 24	�                 Audit of Broadcasting Board of Governors Overseas Nonexpendable
                                 Personal Property

ISP-IB-10-53	�                   Inspection of Voice of America’s Chinese Branch

ISP-IB-10-66	�                   Memorandum Report, Broadcasting Board of Governors Operations in
                                 Islamabad, Pakistan

ISP-IB-10-85	�                   Memorandum Report, Broadcasting Board of Governors Hong Kong,
                                 China

ISP-IB-10-86	�                   Memorandum Report, Broadcasting Board of Governors Beijing, China




                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   91
92   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

Table 1: Inspector General Issued Reports With Questioned Costs
�
                                                                                 Questioned               Unsupported
                                                            Number of              Costs                     Costs
     Type of Report
                                                             Reports             (Dollars in               (Dollars in
                                                                                 Thousands)               Thousands)

A.   For which no management decision has                          0                    $0                    $0
     been made by the commencement of
     the reporting period

B.   Which were issued during the reporting                        0                    $0                    $0
     period

     Subtotals (A + B)                                             0                    $0                    $0

C.   For which a management decision was
     made during the reporting period based
     on formal administrative or judicial
     appeal
      (i) dollar value of disallowed costs                         0                    $0                    $0
      (ii) dollar value of costs not disallowed                    0                    $0                    $0

D.   For which no management decision has                          0                    $0                    $0
     been made by the end of the reporting
     period

     Reports for which no management                               0                    $0                    $0
     decision was made within 6 months of
     issuance




              Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010              93
     Table 2: Inspector General Issued Reports With Recommendations
     That Funds Be Put To Better Use

                                                                             Number of                     Dollar Value
         Type of Report
                                                                              Reports                    (in Thousands)

     A.		 For which no management decision has been                                 0                              $0
          made by the commencement of the reporting
          period

     B.		 Which were issued during the reporting                                    0                              $0
          period

         Subtotals (A + B)		                                                        0                              $0

     C.		 For which a management decision was made
          during the reporting period

         (i) dollar value of recommendations that were                              0                              $0
         agreed to by management
           – based on proposed management action
           – based on proposed legislative action

         (ii) dollar value of recommendations that                                  0                              $0
         were not agreed to by management


     D.		 For which no management decision has been                                 0                              $0
          made by the end of the reporting period

         Reports for which no management decision                                   0                              $0
         was made within six months of issuance




94                 Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

For this reporting period, there were no previously reported significant recommenda-
tions pending final action to report.

There were no reports without management decision for more than 6 months to
report during this period.




             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   95
96   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

There were no audits performed by contractors during this period.




             Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   97
98   Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
LIST OF ABBREVIATIONS
�

Abbreviation                     Full Name
A/OEM                            Bureau of Administration, Office of Emergency Management
A/GIS/DIR                        Bureau of Administration, Global Information Services, Office of Directives
                                 Management
A/OPE                            Bureau of Administration, Office of the Procurement Executive
AGNA                             ArmorGroup North America
BBG                              Broadcasting Board of Governors
CAP                              corrective action plan
CFR                              compliance follow-up review
COR                              contracting officer’s representative
Department                       U.S. Department of State
DOD                              U.S. Department of Defense
DS                               Bureau of Diplomatic Security
ECA                              Bureau of Educational and Cultural Affairs
FBI                              Federal Bureau of Investigation
FSN                              Foreign Service national
FSNI                             Foreign Service national investigators
GFSC                             Global Financial Services Center (Charleston)
HR                               Bureau of Human Resources
IBB                              International Broadcasting Bureau
IBWC                             International Boundary and Water Commission
ILMS                             Integrated Logistics Management System
IT                               information technology
KESF                             Kabul Embassy Security Force
LE                               locally employed
LOGCAP                           Logistics Civil Augmentation Program
M&I                              maintenance and improvement
M&R                              maintenance and repair
MBN                              Middle East Broadcasting Networks, Inc.
MERO                             Middle East Regional Office
MFO                              Multinational Force and Observers
NEA                              Bureau of Near Eastern Affairs



               Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010   99
      Abbreviation                     Full Name
      NEA/PI                           Bureau of Near Eastern Affairs, Office of Middle East Partnership Initiative
      NEC                              new embassy compound
      OBO                              Bureau of Overseas Buildings Operations
      OIG                              Office of Inspector General
      OMB                              Office of Management and Budget
      PAO                              public affairs officer
      PAS                              public affairs section
      PEPFAR                           President’s Emergency Plan for AIDS Relief
      PIERS                            Passport Information Electronic Records System
      PIPS                             Property Inventory Processing System
      PRC                              People’s Republic of China
      PRM                              Bureau of Population, Refugees and Migration
      PSC                              personal services contractor
      R&I                              repair and improvement
      Recovery Act                     American Recovery and Reinvestment Act of 2009
      RSO                              regional security officer
      RM                               Bureau of Resource Management
      SMA                              separate maintenance allowance
      UNRWA                            United Nations Relief and Works Agency for Palestine Refugees in the Near
                                       East
      USAID                            U.S. Agency for International Development
      USIBWC                           International Boundary and Water Commission, United States and Mexico,
                                       U.S. Section
      VOA                              Voice of America
      WPPS II                          Second Worldwide Personal Protective Services




100                  Office of Inspector General Semiannual Report to the Congress - April 1 to September 30, 2010
FRAUD, WASTE, ABUSE
�
OR MISMANAGEMENT
�
of Federal programs hurts everyone.



           Contact the
�
    Office of Inpector General
�
         HOTLINE
�
to report illegal or wasteful activities:


            202-647-3320 

            800-409-9926
�

         oighotline@state.gov 


              oig.state.gov
�

      Office of Inspector General
�
       U.S. Department of State
�
            P. O. Box 9778
�
         Arlington, VA 22219
�


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.
                  Index of Reporting Requirements
�
        Inspector General Act of 1978, as amended
�

Requirement        Subject                                             Page Numbers

Section 4(a)(2)    Review of legislation and regulations                       12-13

Section 5(a)(1)    Summary of Significant problems, abuses, and                  3-9
                   deficiencies

Section 5(a)(2)    Significant recommendations for corrective action           67-73

Section 5(a)(3)    Prior significant recommendations unimplemented             67-73

Section 5(a)(4)    Matters referred to prosecutive authorities              51-56, 87

Section 5(a)(5)    Information or assistance refused                            none

Section 5(a)(6)    List of reports issued                                   61-63, 91

Section 5(a)(7)    Summaries of significant reports                      17-50, 81-85

Section 5(a)(8)    Reports – questioned costs                                  65, 93

Section 5(a)(9)    Reports – funds to be put to better use                     66, 94

Section 5(a)(10)   Prior reports unresolved                                       76

Section 5(a)(11)   Significant revised management decisions                     none

Section 5(a)(12)   Significant management decisions with                        none
                   which OIG disagreed
                            United States Department of State
                         and the Broadcasting Board of Governors
                                Office of Inspector General




Beijing NEC
Photo © Timothy Hurley
